Quarterly Progress and
Oversight Report on the Civilian
Assistance Program in Pakistan
As of March 31, 2011
Foreword
This is the fifth quarterly progress and oversight report on the U.S. Government’s civilian assistance
program in Pakistan. The U.S. Embassy in Pakistan requested quarterly reporting to inform stakeholders
about progress achieved to date, problems encountered during program implementation, and actions
taken to address them.

This report covers January 1 through March 31, 2011. For fiscal year (FY) 2010, Congress appropriated
$1.515 billion authorized by the Enhanced Partnership with Pakistan Act of 2009, along with other
assistance funds, to support the civilian assistance strategy in Pakistan. So far $1.469 billion in Enhanced
Partnership Act with Pakistan funds has been obligated. The U.S. Embassy reported that $4.470 billion
in FY 2009, 2010, and 2011 civilian assistance funds had been obligated as of March 31, 2011.

The information on program status in this report is based on information provided by the departments
and agencies working in Pakistan—the U.S. Agency for International Development (USAID), the
Department of State, the Department of Defense, the Department of Agriculture, and the Department
of Commerce. The program oversight results are taken from audits, reviews, and investigations
performed by the Offices of Inspector General of the U.S. Agency for International Development, the
Department of State, and the Department of Defense, as well as by the U.S. Government Accountability
Office.




____________/s/______________________
The Honorable Donald A. Gambatesa
Inspector General
U.S. Agency for International Development



____________/s/______________________
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



____________/s/______________________
The Honorable Gordon S. Heddell
Inspector General
Department of Defense
Contents
Executive Summary ........................................................................................................................................................... 1

Background.......................................................................................................................................................................... 3

Program Status ................................................................................................................................................................... 5

    Flood Response ............................................................................................................................................................. 8

    High-Impact, High-Visibility Infrastructure............................................................................................................11

    Focused Humanitarian and Social Services: Immediate Postcrisis and Humanitarian Assistance...........16

    Focused Humanitarian and Social Services: Increased Access to and Quality of Education and
     Health Services .........................................................................................................................................................19

    Government Capacity Development: Improved National and Local Governance .....................................23

    Government Capacity Development: Improved Security and Legal Institutions .......................................27

    Assistance to Pakistani Institutions .........................................................................................................................29

Staffing ................................................................................................................................................................................32

Risks and Mitigation Strategies .....................................................................................................................................33

Oversight Status...............................................................................................................................................................37

    USAID Office of Inspector General........................................................................................................................37

    Department of State Office of Inspector General ..............................................................................................41

    Department of Defense Office of Inspector General ........................................................................................42

    Government Accountability Office.........................................................................................................................42

    Completed Oversight Reports as of March 31, 2011 ........................................................................................45

Appendix—–Abbreviations ...........................................................................................................................................47
Executive Summary
The Enhanced Partnership with Pakistan Act of 2009 authorizes democratic, economic, and
development assistance to Pakistan in the amount of $1.5 billion per year from fiscal year (FY) 2010 to
FY 2014, for a total of $7.5 billion. The U.S. Department of State’s Pakistan Assistance Strategy Report,
issued in December 2009, informs the U.S. Government’s civilian assistance program in Pakistan, which
is designed to build trust and a long-term partnership between the two countries by strengthening
mutual security, stability, and prosperity.

For FY 2011, Congress had not yet appropriated civilian assistance funding authorized by the Enhanced
Partnership with Pakistan Act of 2009; however, in FY 2010, Congress appropriated $1.515 billion 1 for
assistance efforts. As of March 31, 2011, the U.S. Embassy in Islamabad reported that $4.470 billion in
FY 2009, 2010, and 2011 funds had been obligated. As stated in the December 2009 Report, these funds
are intended to  support high-impact, high-visibility infrastructure; focused humanitarian and social
services; and government capacity development. The funds also support shifting requirements and needs
as determined by the U.S. Government in consultation with the Government of Pakistan.

Although progress on the civilian assistance program has been difficult to measure, this quarter the U.S.
Agency for International Development (USAID)—the largest contributor to the assistance program—
finalized a plan for performance management that includes performance indicators to gauge the results
of its programs. The performance indicators are incorporated in this quarter’s report.

During the first 6 months of FY 2011, USAID made 25 awards totaling about $182.2 million to
governmental and nongovernmental Pakistani institutions; 12 awards totaling $144.9 million were made
during the reporting period, January 1 through March 31, 2011. To overcome risks posed to the civilian
assistance strategy and to improve monitoring and oversight of its programs, USAID continued to
conduct preaward assessments of local implementing partners. USAID had also begun the process of
soliciting bids for a contract to conduct broad-based monitoring and evaluation activities, with award
expected sometime during the summer of 2011.

USAID’s Office of Inspector General (OIG) was also active during the quarter. To ensure that the
Agency’s funds are protected against waste and theft, USAID OIG expanded its field office in Pakistan,
hosted a fraud-awareness conference for Islamabad-based USAID implementing partners, and
collaborated with USAID/Pakistan to formally launch a fraud hotline in February 2011. USAID OIG also
initiated a number of investigations based on hotline allegations and uncovered additional details related
to the suspension of the Academy for Educational Development (AED), a USAID implementing partner.

                                                            
1
   This amount was authorized under the Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73) and
does not include other assistance funds provided by Congress for Pakistan.
 


                                                                                                            1
USAID OIG and other oversight organizations completed a number of engagements during the period
covered by this report. USAID OIG completed a performance audit of flood relief efforts administered
by two local nongovernmental organizations. The audit found that the two Pakistani organizations met
or exceeded their goals in delivering food and hygiene kits to 80,098 households and administering
medical supplies and treatment to 159,620 people. The Department of State (DOS) OIG completed a
review of the Bureau of Population, Refugees and Migration’s program for internally displaced persons
(IDPs) and found that program partners assisted more than 2.7 million IDPs, meeting the short-term
goals of humanitarian assistance. However, DOS OIG could not determine the overall effectiveness of
the assistance provided and made three recommendations to encourage improvements in its
implementing partners’ performance reporting.

The Government Accountability Office (GAO) completed two engagements during the period. GAO
reviewed the DOS Pakistan Assistance Strategy Report and found it contained neither plans specifically
related to operations research nor information on all of the indicators used to determine Millennium
Challenge Account eligibility, as required. As a result, GAO recommended ways to improve DOS
reporting to Congress and recommended that USAID require Pakistani organizations to address
weaknesses identified in preaward assessments to improve accountability for U.S. assistance. In another
engagement, GAO assessed Department of Defense (DOD) procedures to account for U.S. equipment
provided to Pakistani security forces in the Western Frontier and found the procedures at DOD’s
Islamabad warehouse could be improved. Further, GAO found that the Defense Security Cooperation
Agency (DSCA) had not followed up in a timely manner to ensure weaknesses identified in 2008 in
accounting for sensitive equipment in Pakistan’s custody had been addressed. GAO made three
recommendations to improve accountability for defense articles.




                                                                                                     2
Background
During the reporting period, January 1–March 31, 2011, there were numerous challenges—economic,
political, and security-related—that affected the U.S. assistance program to Pakistan. Despite these
challenges, the U.S. Government continued to carry out its civilian assistance program. For example, in
response to the worst floods in nearly 100 years, the United States is finalizing plans to provide $190
million to the Citizen’s Damage Compensation Fund established by the Government of Pakistan to
provide cash grants to approximately 1.6 million families in areas affected by the floods. 2

The strategy the United States has followed for civilian assistance in Pakistan since December 2009 3 has
three objectives:

•      Improve the Government of Pakistan’s capacity to address the country’s most critical infrastructure
       needs.

•      Help the Pakistani Government address basic needs and provide improved economic opportunities
       in areas most vulnerable to extremism.

•      Strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

In furtherance of these objectives, the strategy envisages assistance programming in five areas: (1) high-
impact, high-visibility infrastructure, (2) focused humanitarian and social services—immediate postcrisis
and humanitarian assistance, (3) focused humanitarian and social services—increased access to and
quality of education and health services, (4) government capacity development—improved national and
local governance, and (5) government capacity development—improved security and legal institutions.

More recently the strategy has been further refined to prioritize assistance in key sectors: energy,
economic growth and agriculture, stabilization, education, and health. Better governance is a cross-
cutting goal that is an integral part of all programs.

The U.S. Government has committed to the Government of Pakistan to direct as much of its assistance
as possible through Pakistani institutions, particularly government ministries, with the goal of using and
improving Pakistani systems, and promoting sustainability. The FY 2010 spending plan shows about 50
percent of the resources going through government systems.




                                                            
2
    U.S. Embassy Islamabad, “U.S. Helps Flood Victims,” press release, January 6, 2011.
3
  The Department of State developed a strategy (Pakistan Assistance Strategy Report, December 14, 2009) in
connection with the Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73) that seeks to align U.S.
assistance more closely with Pakistan’s development and investment priorities.

                                                                                                             3
                                         Figure 1. Map of Pakistan




Source: USAID’s Office of Transition Initiatives, Geographic Information Unit.




                                                                                 4
Program Status
The U.S. departments and agencies delivering development assistance in Pakistan are designing and
implementing programs to accomplish the objectives of the U.S. Government’s civilian assistance
strategy. The following sections update the status of programs in the areas of flood response; high-
impact, high-visibility infrastructure; postcrisis and humanitarian assistance; education and health
services; national and local governance; and security and legal institutions.

The U.S. Embassy reported that as of March 31, 2011, $4.470 billion in FY 2009, 2010, and 2011 funds
had been obligated to support the civilian assistance strategy (Table 1). Of this amount, $310.5 million
in FY 2011 funds was obligated.
                       Table 1. Program Financial Status as of March 31, 2011
                                            ($ Millions)

                                                                    Obligations
                                                            FY      FY       FY                 Pipeline
              Program                     Manager
                                                           2009    2010     2011    Total       Amount*

 Flood Response: Emergency
 Relief and Early Recovery
 World Food Programme                  USAID                –      144.0     95.8    239.8             –
 Humanitarian programs – Office of
 Transition Initiatives, Pakistan’s
 National Disaster Management
                                       USAID                –       60.0     –        60.0         20.0
 Authority, Pakistan Poverty
 Alleviation Fund, Rural Support
 Programmes Network
 Humanitarian programs – Office of
 Foreign Disaster Assistance           USAID                –      211.7     –       211.7         32.0
 (OFDA)
 Narcotics Affairs Section (NAS),                                 In-kind
                                       NAS                  –                –        –            –
 U.S. Embassy                                                     support
                                       Political Affairs
 Pakistan Internally Displaced
                                       Section (POL),       –       49.3     –        49.3         –
 Persons
                                       U.S. Embassy
 Overseas Humanitarian, Disaster,
                                       DOD                  –      113.0     –       113.0             5.0
 and Civic Aid
 Subtotals                                                  –     578.0     95.8     673.8         57.0
 High-Impact, High-Visibility
 Infrastructure
 International Trade Administration,
                                       DOC                  0.8      3.8     –            4.6          1.1
 Department of Commerce (DOC)
                                       U.S.
 Foreign Agriculture Programs          Department of       44.0    51.8      –        95.8         39.0
                                       Agriculture

                                                                                                             5
                                                                Obligations
                                                       FY       FY       FY               Pipeline
              Program                   Manager
                                                      2009     2010     2011    Total     Amount*

USAID transfer to U.S. Trade and
                                      USTDA             5.0      –       –          5.0          8.8
Development Agency (USTDA)
Federally Administered Tribal Areas
                                      NAS              15.0      –       –         15.0      12.2
(FATA) roads, bridges
FATA roads (Swat, Ring Road)          NAS              40.0      –       –         40.0      40.0
Energy                                USAID           125.0     91.5     –        216.5     161.0
Agriculture                           USAID            95.0    111.8     –        206.8     102.1
Economic growth                       USAID           166.0    185.1     –        351.1     284.9
Subtotals                                             490.8    444.0     –       934.8      649.1
Focused Humanitarian and
Social Services
Health/Water                          USAID           102.0    224.2     –        326.2     275.0
Health                                USAID            –        29.7     –         29.7      –
Education                             USAID           163.5    209.5     –        373.0     366.4
Humanitarian assistance               USAID           209.0    335.0     –        544.0      97.5
Humanitarian programs – OFDA          USAID           102.3     18.2    103.0     223.5      76.6
World Food Programme                  USAID            55.4     99.8     29.1     184.3      –
USAID transfer to the United
                                      U.N.              1.0      –       –          1.0      –
Nations’ Bhutto Commission
Community Stabilization and           DOD/
                                                       10.0      –       –         10.0          9.1
Humanitarian Assistance Fund          DOS
                                      Department of
Mitigating Child Labor                                 –         4.0     –          4.0      –
                                      Labor
Mine Action – Response
                                      POL               0.5      –       –          0.5          0.2
International
Trafficking in Persons                POL               0.5      0.8     –          1.3          1.0
Pakistan Internally Displaced
                                      POL              59.6     42.0     –        101.6      –
Persons
Afghan Refugees                       POL              74.7     45.3     –        120.0      –
Fulbright                             PAS              19.5     19.5     –         39.0      19.5
Other exchanges                       PAS               5.0      6.0     –         11.0      –
Public diplomacy operating
                                      PAS               2.0      2.0     –          4.0      –
expenses
Subtotals                                             805.0   1,036.0   132.1   1,973.1     845.3
Government Capacity
Improvement
Drug Enforcement Administration
                                      DEA               1.5      1.5      1.5       4.5      –
(DEA)
                                      Department of
Energy programs                                        66.6     94.2     68.6     229.4      79.3
                                      Energy



                                                                                                       6
                                                                          Obligations
                                                                FY        FY       FY               Pipeline
                  Program                     Manager
                                                               2009      2010     2011    Total     Amount*

                                           Department of
    Immigration and Customs
                                           Homeland              1.1       1.1      1.1       3.3      –
    Enforcement
                                           Security
    Federal Bureau of Investigation
                                           FBI                   1.0       1.0      1.0       3.0          –
    (FBI)/Legal Attaché Office
    Democracy Rights Labor                 POL                   6.8       5.7      0.7      13.2          1.3
    Democracy – National Endowment
                                           POL                   4.3       3.4      1.2       8.9          3.0
    for Democracy
    Counternarcotics                       NAS                   3.0       5.5     –          8.5          8.5
    Border Security (Aviation)             NAS                  37.0      52.0     –         89.0       52.3
    Border Security (Commodities,
                                           NAS                   0.2       –       –          0.2          4.7
    Training)
    Police/law enforcement training/rule
                                           NAS                  51.0     106.6     –        157.6      150.9
    of law
    Demand Reduction/Awareness             NAS                   0.5       1.5     –          2.0          2.2
    Program development support            NAS                   9.8       4.4     –         14.2      –
                                           Regional
                                           Security Office
    Counterterrorism                                            11.8      15.4     –         27.2       18.7
                                           (RSO), U.S.
                                           Embassy
                                           Economic
    Biosecurity Engagement                 Affairs Section,     12.5      16.0      1.5      30.0       10.6
                                           U.S. Embassy
    U.S. Institute of Peace (USIP)         USIP                  –         0.9     –          0.9          0.1
    Democracy/Governance                   USAID                40.0      90.4     –        130.4      230.5
    Office of Transition Initiatives       USAID                68.0      23.4     –         91.4       27.3
    Subtotals                                                  315.1     423.0    75.6     813.7      589.4
    Other Programs
    Strategic communications               DOD                   7.0       7.0      7.0      21.0      –
    Strategic communications               PAS                  30.9      23.0      –        53.9       27.0
    Subtotals                                                   37.9      30.0      7.0     74.9       27.0
    Totals                                                    1,648.8   2,511.0   310.5   4,470.3    2,167.8

Source: U.S. Embassy Islamabad.
* The Embassy provided pipeline amounts that capture unspent funds from FY 2002–11. These amounts are not
comparable to FY 2009, 2010, and 2011 obligations or accurate indicators of expenditures for those years.
 




                                                                                                                 7
Flood Response

Pakistan experienced the worst floods in nearly 100 years during August and September 2010. The
flooding affected over 20 million people, caused approximately 1,980 deaths, and destroyed or damaged
about 1.7 million houses. The map below shows areas affected by the flooding.

                                   Figure 2. Flood Map of Pakistan




  Source: USAID’s Office of Foreign Disaster Assistance, Geographic Information Unit.


In response, the U.S. Government has been working closely with the Government of Pakistan and the
international community as assistance efforts move from relief to recovery and reconstruction. Table 2
lists USAID’s 25 flood assistance programs, along with status and funding details. These programs also
appear under the corresponding assistance categories: high-impact, high-visibility infrastructure and
immediate post-crisis and humanitarian assistance.

                                                                                                    8
               Table 2. USAID’s Flood Assistance Programs as of March 31, 2011

    Implementing Partner                 Program Description                      Status and Funding
International Organization for
Migration (IOM), Creative           Quick Impact Infrastructure in FATA      Completed; $8 million
Associates, Internews
                                                                             In progress; $6 million—80% of
                                    Reproductive health and hygiene kits     health and hygiene kits supplied,
U.N. Population Fund (UNFPA)
                                    for women in flood-affected areas        20% will be completed by the end
                                                                             of May 2011
                                    Maternal and child health activities
UNICEF                              including providing safe drinking        Completed; $2 million
                                    water in flood-affected areas
                                    Procurement and distribution of
Pakistan Poverty Alleviation Fund   relief supplies for flood-affected       Completed; $2.7 million
                                    people
                                    Procurement and distribution of
Rural Support Programmes
                                    relief supplies for flood-affected       Completed; $2.3 million
Network
                                    people in Sindh
Provincial Governments of Punjab,   Municipal Services Delivery Program
Sindh, Khyber Pakhtunkhwa,          rehabilitating flood-affected            In progress; $10 million
Balochistan                         infrastructure
                                                                             In progress; $6.4 million—50 camp
                                    Mobile health teams and nutritional
Aga Khan University                                                          sites are operational in flood-
                                    support in flood-affected areas
                                                                             affected districts
                                                                             In progress; $5.6 million—3 polio
World Health Organization (WHO)     Immunizations for polio and measles
                                                                             campaigns and a measles campaign
and U.N. Children’s Fund (UNICEF)   in flood-affected areas
                                                                             conducted
                                    Multi-Donor Trust Fund for
                                                                             In progress; $25 million—portion
                                    reconstruction in border areas
World Bank                                                                   for flood recovery is to be
                                    providing funding to repair flood-
                                                                             determined
                                    damaged facilities
                                    Capacity building and procurement of
IOM                                 relief supplies for the National         In progress; $5.8 million
                                    Disaster Management Authority
                                    Seed and fertilizer distribution to      In progress; $62 million ($47
U.N. Food and Agriculture
                                    flood-affected farmers in Khyber         million from USAID/Pakistan and
Organization (FAO)
                                    Pakhtunkhwa, Punjab, and Balochistan     $15 million from USAID/OFDA)
                                    Procurement and distribution of
Rural Support Programmes
                                    replacement crops for flood-affected     In progress; $15 million
Network
                                    households in Sindh
                                    Firms Project assisting small and
                                    medium-sized enterprises in areas        In progress; $11.5 million from
Chemonics
                                    vulnerable to conflict to make the       existing project resources
                                    businesses internationally competitive
                                    Entrepreneurs Program supporting
Mennonite Economic Development                                               In progress; $2.2 million from
                                    women’s microenterprises in
Associates                                                                   existing project resources
                                    vulnerable areas
To be determined (through a         Renovation of flood-affected
competitive bidding process, per    tuberculosis facilities and restocking   In progress; $7.2 million
U.S. regulations)                   their medicines and equipment
                                    Monitoring of USAID-funded flood
APEX Consulting                                                              In progress; $150,000
                                    assistance activities in Sindh


                                                                                                                 9
    Implementing Partner                  Program Description                     Status and Funding
                                     Monitoring of USAID-funded flood
Community Uplift Program                                                     In progress; $150,000
                                     assistance activities in Balochistan
                                     Monitoring of USAID-funded flood
Voice Tel Tech                       assistance activities in Punjab and     In progress; $150,000
                                     Khyber Pakhtunkhwa
                                                                             In progress; $374,410 for flood-
Aurat Foundation                     Gender Equity Program                   related projects—23 grants
                                                                             awarded
                                                                             In progress; $780,876 for flood-
                                     Small Grants Program for unsolicited
National Rural Support Programme                                             related projects—8 grants
                                     proposals and Chief of Mission Fund
                                                                             awarded
                                                                             In progress; $190 million—World
Government of Pakistan (Cabinet      Citizen’s Damage Compensation
                                                                             Bank is leading coordination and
Secretariat; National Database and   Fund for assistance to flood-affected
                                                                             negotiating with other donors and
Registration Authority)              households
                                                                             the Pakistani Government
                                                                             In progress; $10 million for flood-
                                     Southern Punjab Basic Education
                                                                             affected schools (part of existing
Provincial Government of Punjab      Program providing support to flood-
                                                                             program, plus an additional
                                     affected schools
                                                                             $40 million for floods)
                                                                             Proposed; $40 million for flood-
                                     Sindh Education Program providing       affected schools (use of
Provincial Government of Sindh
                                     support to flood-affected schools       reprogrammed funds requires
                                                                             congressional renotification)
                                                                             Proposed; $24.5 million for flood-
Government of Pakistan, FATA
                                     Quick Impact Program in South           damaged roads and bridges
Secretariat, and Frontier Works
                                     Waziristan                              (requires congressional
Organization
                                                                             renotification)
                                                                             Proposed; $41 million ($18 million
Government of Khyber                                                         for irrigation systems repair in
Pakhtunkhwa, Provincial                                                      Swat, $6.5 million for Ayub Bridge
                                     Quick Impact Program in Malakand
Reconstruction, Rehabilitation and                                           replacement in Swat, and $16
Settlement Authority                                                         million for road and bridge
                                                                             rehabilitation in Malakand)
Source: USAID/Pakistan.

In addition to identifying flood-related programs, USAID noted other initiatives that benefit flood
victims:

•   The U.S. Mission in Pakistan has identified up to $500 million in FY 2009 and FY 2010 funds that are
    being reprogrammed, pending final congressional approval, to support the Government of Pakistan’s
    flood recovery efforts.

•   As part of the above-mentioned $500 million effort, the Entrepreneurs Program is providing
    livelihood recovery support to 34,000 mostly women-headed families affected by floods.

•   The Firms Project has also provided grant assistance under the $500 million effort to 234 Swat
    hotels and 22 fisheries to help them rebuild from flood damage in time for the upcoming tourist
    season.  



                                                                                                              10
High-Impact, High-Visibility Infrastructure

As the name implies, this category of assistance is intended to make a big difference in the Pakistani
economy, a difference that improves people’s livelihoods quickly, noticeably, and directly. The sectors in
which infrastructure programs are most critical are energy and agriculture—energy because all
businesses rely on it, and agriculture because it employs 60 percent of the population and consumes
90 percent of the country’s increasingly scarce water resources which need to be better managed.
Chronic periodic shortages of both power and water limit economic growth, as does inadequate
infrastructure for agroenterprise. USAID, the U.S. Department of Agriculture (USDA), the U.S.
Department of Commerce (DOC), and the U.S. Embassy’s Public Affairs Section (PAS) support
programs under this category of assistance.

USAID has 24 high-impact, high-visibility programs—1 completed during the quarter, 22 under way, and
1 in the planning stage. USAID’s programs in this assistance category seek to help the Government of
Pakistan supply hydropower through the completion of the Gomal Zam and Satpara Dams and the
rehabilitation of the Tarbela Dam to meet growing energy demands. USAID’s current programs also
support Pakistan’s provincial governments with water management and irrigation for agriculture, supply,
and sanitation; health facilities; and the delivery of municipal services. Table 3 lists USAID’s programs
along with status details.

        Table 3. USAID’s High-Impact, High-Visibility Infrastructure Programs as of
                                    March 31, 2011

   Implementing Partner                Program Description                              Status
                                    Development of a model and
Knowledge Platform, SMC-PVT,        implementation of a plan for the
                                                                        Completed
Limited                             transformation of the
                                    agricultural supply chain in Swat
                                                                        Current; agreement signed January 7,
Water and Power Development         Satpara Dam, hydropower and
                                                                        2011; Secretary certification submitted
Authority (WAPDA)                   irrigation
                                                                        to Congress*
                                                                        Current; Secretary certification
                                    Gomal Zam Dam, hydropower
WAPDA                                                                   submitted to Congress;* disbursing
                                    and transmission line completion
                                                                        funds
                                    Gomal Zam irrigation                Current; preparing to conduct
WAPDA
                                    (agriculture)                       environmental assessment
                                    Tarbela hydroelectric power         Current; disbursing funds; to install
WAPDA
                                    station rehabilitation              equipment in early 2011  
Ministry of Water and Power,
                                    Jamshoro thermal power station      Current; disbursing funds; received
Power Generation Company
                                    repair and maintenance              equipment
(GENCO I)
                                    Muzaffargarh thermal power          Current; disbursing funds; received
GENCO II
                                    station repair and maintenance      equipment
                                    Guddu thermal power station
GENCO III                                                               Current
                                    repair and maintenance




                                                                                                              11
    Implementing Partner                Program Description                               Status
                                                                          Current; signed agreement in Nov.
                                     Wind-power generation project
WAPDA                                                                     2010; Overseas Private Investment
                                     in Sindh
                                                                          Corporation also funding
                                                                          Current; first 420 tubewells under pilot
                                     Irrigation Tubewell Efficiency
International Resources Group                                             program completed Nov. 2010;
                                     Improvement Program
                                                                          disbursing funds
                                                                          Current; completed initial
Provincial Government of             Balochistan surface water
                                                                          implementation assessment; delayed
Balochistan                          management (agriculture)
                                                                          due to security concerns
                                     High-Efficiency Irrigation Systems   Current; funding delayed until FY 2011
Ministry of Food and Agriculture
                                     Program                              at Government of Pakistan’s request
                                                                          Current; $630,00 obligated; working
                                     Water supply and sanitation
Provincial Government of Sindh                                            with District Coordination Officer for
                                     programs in Jacobabad
                                                                          necessary approvals
                                                                          Current; $581,692 obligated;
                                                                          engineering assessment of water supply
Provincial Government of Khyber      Water supply and sanitation
                                                                          distribution system completed;
Pakhtunkhwa                          programs in Peshawar
                                                                          engineering assessment of sanitation
                                                                          system under way
                                                                          Current; most rehabilitation plans
Ministry of Health and Provincial
                                     Lady Willingdon Hospital             complete and Secretary certification
Government of Punjab
                                                                          submitted to Congress*
                                                                          Current; initial assessment complete;
Ministry of Health and Provincial
                                     Jacobabad Civil Hospital             detailed assessment under way and
Government of Sindh
                                                                          Secretary certification received*
                                                                          Current; assessment and design
Ministry of Health and Provincial    Jinnah Postgraduate Medical
                                                                          complete; ground breaking in April, and
Government of Sindh                  Center OB-GYN/Fistula Ward
                                                                          Secretary certification received*
                                                                          Current; construction approximately
                                     Karachi warehouse to store           66 percent complete, with completion
Winrock International
                                     contraceptive supplies               expected by June 2011; disbursing
                                                                          funds
                                                                          Current; construction approximately
Habib-Rafique (Pvt.) Ltd./CDM        Construction of Parliamentary
                                                                          a month ahead of schedule; disbursing
Constructors, Inc.                   Institute
                                                                          funds
Provincial Governments of Punjab,
                                     Municipal Services Delivery
Sindh, Khyber Pakhtunkhwa,                                                Current
                                     Program
Balochistan
                                                                          Current; disbursing funds; 1,400
                                                                          activities under way or completed,
                                     Pakistan Transition Initiative in
IOM, Creative Associates,                                                 including 400 village water systems, 225
                                     FATA/Quick Impact
Internews                                                                 flood walls, 150 school renovations,
                                     Infrastructure in FATA
                                                                          and 1.5 million person-days of
                                                                          employment generated
Government of Pakistan, FATA         Quick Impact Program in South        Current; additional funds disbursed in
Secretariat, Frontier Works          Waziristan (road, water, and         Feb. 2011 for reconstruction of flood-
Organization                         electricity)                         affected roads and bridges
Provincial Government of Khyber      Quick Impact Program in
Pakhtunkhwa and Provincial           Malakand (schools, health, water     Current; disbursing funds; construction
Reconstruction, Rehabilitation and   and sanitation, government           has begun on 49 schools
Settlement Authority                 capacity)


                                                                                                                12
    Implementing Partner                  Program Description                                Status
                                       South Waziristan, D.I. Khan
WAPDA                                                                       Planning stage
                                       irrigation (agriculture)

Source: USAID/Pakistan.
* The Consolidated Appropriations Act, 2010, Public Law 111–117 (Dec. 16, 2009), makes funds available for
government-to-government assistance to Pakistan only if the Secretary of State certifies “that the U.S. Government
and Pakistan have agreed, in writing, to clear and achievable goals and objectives for the use of the funds, and have
established mechanisms within each implementing agency to ensure that the funds will be used for the purpose for
which they are intended.”


In response to USAID OIG’s request for information on the progress of these programs, USAID
provided its recently approved performance indicators. USAID recently received approval of its
performance management plan at the objective level. USAID reported that it is collecting project-level
indicators and targets to link project activities to the objective-level targets, and further noted that the
total list of targets for the objective level cannot be finalized until the activity-level indicators and targets
are fully established.  USAID also noted that progress on the indicators may be reported quarterly
instead of results, since some results may take several quarters to achieve.

USAID provided the following approved FY 2011 indicators to be tracked and reported on:

•   Megawatts of energy added as a result of U.S. Government-sponsored construction and
    rehabilitation efforts (target: 625 MW; results will trickle in starting in May 2011, when projects
    start to be completed and carry on through 2013 as more projects are completed).

•   Increase in the supply of fuel by the Government of Pakistan to target higher-efficiency power plants
    (target: fuel savings estimated at 150,000 barrels of oil; preliminary results: 6,000 barrels of oil with
    project in progress).

•   Number of schools and health facilities constructed with U.S. Government assistance (target: 23;
    result: 10 school sites in Malakand and 17 basic health units have been designed, with construction
    beginning for both schools and health units).

USAID reported the following examples of progress and success in its portfolio of energy, agriculture,
and economic growth programs:

•   Significant progress has been made on the six signature energy projects announced by Secretary
    Clinton involving rehabilitation and new construction of hydro and thermal plants. USAID has
    received claims for reimbursement worth $45.25 million, of which $33.87 million has been
    reimbursed to the Government of Pakistan since January 2011.

•   Fixed-amount reimbursement agreements for the thermal plants in Guddu, Muzaffargarh, and
    Jamshoro have been amended to allow power-generating companies to procure maintenance and
    rehabilitation items directly, in accordance with Pakistani Government regulations, thereby
    expediting procurement. A USAID contractor will review the procurements made under the


                                                                                                                  13
    amended agreements.       In total, $5 million has been disbursed for these three power plant
    rehabilitation efforts.

•   USAID/Pakistan’s agricultural sector framework and implementation plan was developed in February
    2011 and later incorporated and approved by interagency and USAID leaders as a major component
    of a broader economic growth strategy.

•   To address congressional concerns raised about the safety of the Satpara Dam, USAID/Pakistan
    arranged a safety inspection by the Bureau of Land Reclamation. This inspection determined that
    the dam met design specifications and that the overall design was fully consistent with international
    design standards for earth-filled dams. USAID/Pakistan is developing the final environmental
    mitigation and monitoring plan to ensure compliance with U.S. environmental regulations.

•   USAID/Pakistan’s Agriculture Office is preparing agreements with the Government of Pakistan and
    the environmental assessments necessary to enhance water storage capacity and bring 191,000 acres
    under irrigation around the Gomal Zam Dam. USAID plans to provide reimbursement for a
    percentage of the following work: preparatory work to include feasibility studies and construction of
    a water diversion barrage and a 60-kilometer main canal and related secondary canals. USAID
    expects that $40 million will be obligated for this activity.

•   The Entrepreneurs Program supporting women’s microenterprise in vulnerable regions has thus far
    assisted 20,000 women. A third cycle of microgrants will be issued to women in conflict-affected
    communities in the near term. An impact assessment—conducted using a sample of 240 conflict-
    affected beneficiaries from the first cycle—shows an anticipated increase in average monthly income
    of 5,659 rupees (approximately $66). A monitoring and evaluation effort to determine income
    benefits from the second and third cycles, and to confirm increases in the income of first-cycle
    beneficiaries, is under way.

•   USAID signed a transfer agreement to provide the Department of the Treasury with $1.78 million
    to support two residential advisers and one intermittent adviser to Pakistan’s Ministry of Finance,
    Ministry of Economic Affairs and Statistics, and the State Bank of Pakistan. Resident advisers from
    the Department of the Treasury’s Office of Technical Assistance will provide expert guidance and
    training to build capacity in the Government of Pakistan for managing sovereign debt, developing the
    commercial paper market, and combating economic crimes. In order for the Department of the
    Treasury to place its first adviser in Islamabad, planned for March 2011, it submitted to the
    Government of Pakistan the terms of reference describing the adviser’s program. The Department
    of the Treasury awaits approval of the first adviser’s terms of reference. The Department will place
    the second resident adviser in the State Bank of Pakistan in Karachi. The Department has not
    submitted the terms of reference to the Government of Pakistan for the second adviser. Advisers
    will relocate to Pakistani only after the Government of Pakistan approves their terms of reference.

USAID also reported the following challenges to the implementation of its energy and agricultural
programs:


                                                                                                      14
•   As noted last quarter, progress on implementing high-efficiency irrigation systems through a
    government-to-government mechanism stalled after the Government of Pakistan asked that this
    program be delayed until 2011, as flood recovery needs were more immediate. Also, although the
    Pakistani Government’s Central Development Working Party has approved the amended proposal
    for high-efficiency irrigation, the proposal awaits final approval from Pakistan’s Executive Committee
    of the National Economic Council. 4

•   Because of the political situation in Lahore, meetings related to the Smallholder Dairy Program were
    significantly delayed.

USDA. USDA’s programming in this category focuses on modernizing agricultural infrastructure. In
September 2010, USDA signed a $30 million Food for Progress grant agreement with a U.S.-based
nongovernmental organization (NGO) to implement the Pakistan Agriculture and Cold Chain
Development Project. The project, in the Balochistan Province of southwest Pakistan, seeks to improve
food quality and supply, realize higher prices for producers, and deliver a higher-value product to
consumers. Implementation of the project is scheduled to begin in April 2011.

As reported in June 2010, USDA’s Agricultural Investment Strategy, a plan for the investment of
resources to support agricultural development in Pakistan, was reviewed and approved by an
interagency team and the U.S. House of Representatives Committee on Appropriations. Assisted by a
$19 million transfer from USAID in March 2011, USDA—along with the Ministry of Food and
Agriculture and its international implementing partners—has begun to carry out the initial stage of the
strategy.

DOC. DOC programs focus on trade and investment promotion. During the reporting period, as
part of its market research program (supported by USAID), DOC completed two sector reports on
transportation and telecommunications. An additional study focusing on the investment climate for
Pakistan’s alternative energy sector was in the draft stage. Also, DOC’s second investment promotion
program has delivered detailed project studies for potential investments.

DOC also reported that an investment seminar for the agricultural and dairy sectors scheduled for
February was postponed due to political considerations. Moreover, the concern for physical security
continues to deter American business executives from traveling to Pakistan—a significant challenge to
attracting new investors and commercial ventures.

PAS. PAS reported on two programs related to high-impact, high-visibility infrastructure: the
procurement of electronic governance infrastructure, and radio transmitter towers. Unlike in previous
quarters, PAS did not report progress on reestablishing public diplomacy (American) centers as security
and access concerns have called the plans into question.

                                                            
4
   As this report was being finalized, USAID was informed that the amended proposal was no longer being
considered. USAID will be evaluating the impact of this political decision of the Pakistani Government. 
 


                                                                                                           15
PAS reported on building a National Data Center for Pakistan, which will enable the government to use
e-mail, Web-hosting, and file-archiving technology. Although previously scheduled for March 2011,
signing of the activity agreement is now scheduled to occur next quarter. This project is an initiative of
the Communications and Public Diplomacy Working Group of the U.S.-Pakistan Strategic Dialogue,
administered jointly by PAS and USAID.

PAS and USAID are reviewing plans to construct an AM radio transmitter for Radio Pakistan, which
would serve Balochistan. (This is in addition to the $7 million radio transmitter tower program already
being implemented in Khyber Pakhtunkhwa and FATA.) Like the National Data Center, the AM
transmitter is an initiative stemming from the Strategic Dialogue. However, because approximately $5
million of the funds formerly assigned to the project have been reassigned to flood relief activities, this
effort will be scaled down or replaced with another, similar project.

Focused Humanitarian and Social Services: Immediate Postcrisis and
Humanitarian Assistance

Through international relief agencies and local institutions, the U.S. Government channels assistance for
people affected by natural disasters or ongoing military operations in Waziristan and other areas along
the border with Afghanistan. In addition, the U.S. Government supports the Government of Pakistan’s
efforts to provide basic health, education, and other services; rehabilitate infrastructure; and create jobs.
USAID manages the largest U.S. Government humanitarian assistance programs in Pakistan.

During the reporting period, USAID had 30 programs for immediate postcrisis and humanitarian
assistance—4 were completed during the quarter, 25 were under way, and 1 was in the planning stage.
Programs provided cash transfers for housing damage assistance and grants to continue to supply safe
drinking water, nutritional support, and health and hygiene kits to flood-affected areas. Table 4 lists the
status of USAID’s programs for postcrisis and humanitarian assistance.

 Table 4. USAID’s Postcrisis and Humanitarian Assistance Programs as of March 31, 2011

Implementing Partner                      Program Description                                Status
                                                                                 Completed; grants made to
                            Grants to businesses affected by violence and
Khushhali Bank                                                                   businesses destroyed by
                            flooding, Bolton Market, Karachi
                                                                                 Bolton Market fire
                            Emergency operations in Pakistan, including
World Food Programme                                                             Completed
                            support for IDPs in Hunza
World Food Programme        Food Security Relief Program in Pakistan             Completed
                            Maternal and child health, safe drinking water in
UNICEF                                                                           Completed
                            flood-affected areas
                                                                                 Current; distribution of
                            Seed and fertilizer distribution to flood-affected
                                                                                 supplies completed; the cash
FAO                         farmers in Khyber Pakhtunkhwa, Punjab, and
                                                                                 for work component is going
                            Balochistan
                                                                                 to clean watercourses




                                                                                                             16
Implementing Partner                      Program Description                                  Status
                                                                                   Current; rupees distributed to
                             Cash transfer to assist IDPs in Khyber                beneficiaries; awaiting financial
Government of Pakistan
                             Pakhtunkhwa                                           audit and reporting from
                                                                                   Government of Pakistan
                                                                                   Current; continuing to
Provincial Reconstruction,                                                         disburse rupees while
                             Cash transfer for housing damage assistance for
Rehabilitation and                                                                 monitoring and helping build
                             Khyber Pakhtunkhwa and FATA
Settlement Authority                                                               the authority’s capacity to
                                                                                   implement the program
                                                                                   Current; $63 million rupees
                             Cash transfer for the Benazir Income Support
Government of Pakistan                                                             distributed; continuing to
                             Program
                                                                                   monitor the program
                                                                                   Current; 50 medical camps
                             Mobile health teams and nutritional support in        providing free medical care
Aga Khan University
                             flood-affected areas                                  and medicines to people in
                                                                                   flood-affected districts
                                                                                   Current; distribution of health
                             Reproductive health and hygiene kits for women in     and hygiene kits 80%
UNFPA
                             flood-affected areas                                  completed, 20% kits to be
                                                                                   distributed by end May 2011
                             Immunizations for polio and measles in flood-         Current; three polio and one
WHO and UNICEF
                             affected areas                                        measles campaign conducted
                                                                                   Current; funds disbursed to
                             Multi-Donor Trust Fund for reconstruction in          World Bank, and three
World Bank                   border areas, a portion of which will be used to      projects will begin soon
                             repair flood-damaged facilities                       (livelihoods and economic
                                                                                   opportunity)
Pakistan Poverty             Procurement and distribution of relief supplies for
                                                                                   Current; funds disbursed
Alleviation Fund             flood-affected people
Rural Support                Procurement and distribution of relief supplies for   Current; funds disbursed, and
Programmes Network           flood-affected people in Sindh                        seeds to be distributed
                             Capacity-building and procurement of relief
IOM                          supplies for flood-affected people on behalf of the   Current; funds disbursed
                             National Disaster Management Authority
                                                                                   Current; first dry mango
                             Firms Project assistance to small and medium-sized    product retailed in U.S.
Chemonics                    enterprises in areas vulnerable to conflict to make   market in Dec. 2010,
                             the businesses internationally competitive            supporting Swat hotels and
                                                                                   fisheries damaged by floods
                                                                                   Current; disbursed
CHF International, Inc.      Livelihood Development Program in lower FATA          approximately 33 percent of
                                                                                   funding
Associates in                South Waziristan Agency Monitoring and
                                                                                   Current
Development                  Evaluation Contract
Pakistan Broadcasting        Radio transmission support to Khyber                  Current; rehabilitation of sites
Corporation                  Pakhtunkhwa and FATA                                  began first quarter 2011
                                                                                   Current; 26 schools and 15
                                                                                   health units completed (20
CDM Constructors, Inc.       Pakistan Reconstruction Project (earthquake)
                                                                                   schools and one hospital
                                                                                   pending)
                             Community Rehabilitation Infrastructure Support
Winrock International                                                              Current
                             Program


                                                                                                                 17
Implementing Partner                       Program Description                                 Status

UNICEF                       Child Protection Center                                Current
                                                                                    Current; over 25,000
Mennonite Economic           Entrepreneurs Program supporting women’s
                                                                                    households have received
Development Associates       microenterprises in vulnerable areas
                                                                                    microgrants
                                                                                    Current; World Bank is
                             Citizen’s Damage Compensation Fund for
Government of Pakistan                                                              negotiating with the GOP and
                             assistance to flood-affected households
                                                                                    other donors
                             Support for the Office of the Special Envoy of the     Current; grant extended in
U.N. Secretariat
                             Secretary General for Assistance to Pakistan           January 2011
                             Renovation of flood-affected tuberculosis facilities
To be determined                                                                    Current
                             and restocking their medicines and equipment
                             Monitoring of USAID-funded flood assistance
APEX Consulting                                                                     Current
                             activities in Sindh
Community Uplift             Monitoring of USAID-funded flood assistance
                                                                                    Current
Program                      activities in Balochistan
                             Monitoring of USAID-funded flood assistance
Voice Tel Tech                                                                      Current
                             activities in Punjab and Khyber Pakhtunkhwa
                             Support to families and communities that suffer
To be determined                                                                    Planning Stage
                             from losses as a result of military operations
Source: USAID/Pakistan.

In response to USAID OIG’s request for information on the progress of these programs, USAID
provided its recently approved performance indicators. USAID recently received approval of its
performance management plan at the objective level. USAID reported that it is collecting project-level
indicators and targets to link project activities to the objective-level targets, and further noted that the
total list of targets for the objective level cannot be finalized until the activity-level indicators and targets
are fully established.  The following performance indicators differ from those previously reported for
this category of assistance, but given the nature of flood response activities—from relief to early
recovery and reconstruction—the identified indicators are dynamic and may be updated or replaced as
necessary. USAID reported that it expects flood relief activities to be completed by November 2011.  

•   Health camps established for flood victims (target and result: 50 health camps; this target was set in
    the agreement, results reported by partner and verified by three independent firms in four
    provinces).

•   Increased availability of reproductive health supplies and services for flood-affected populations
    (target and result as set forth in agreement with UNFPA: 12 flood-affected districts were supplied
    with life-saving reproductive health supplies, benefiting over 25,000 people. This has been verified
    by three independent firms in four provinces. In addition, 1,500 reproductive health kits, 8,200
    hygiene kits, and 31,100 newborn kits were supplied to health-care providers in flood-affected
    districts).

•   Provide measles vaccinations to children in flood-affected areas (target and result: 8 million includes
    vaccinations for measles, polio, tuberculosis (Bacillus Calmette-Guérin), tetanus, and pentavalent;
    this target was set in the agreement, and results were reported by the partner and verified by three
    independent firms in four provinces).

                                                                                                              18
•   Supplementary livestock feeding and supplies (target and result: 50,000 beneficiaries; this target was
    set in the agreement, and results were reported by the partner and verified by three independent
    firms in four provinces).

•   Desilting of farm irrigation infrastructure (target and result: Per agreement with FAO, over 90,000
    households benefited from desilting techniques in Balochistan; data has been verified by an
    independent firm in Balochistan).

•   Number of beneficiaries assisted by USAID-supported humanitarian assistance for victims of conflict
    and natural disasters (target and result: the beneficiary number is over 11 million Pakistanis, under
    the emergency agriculture input distribution to flood-affected farmers in Balochistan, Khyber
    Pakhtunkhwa, Punjab, and Sindh Provinces, as well as health and other emergency relief efforts).

USAID also reported the following examples of progress in its immediate postcrisis and humanitarian
assistance programs:

•   The Entrepreneurs Program provides livelihood recovery support to 34,000 mostly women-headed
    families affected by floods. The program is providing $2.2 million in assistance to households active
    in sectors selected for development: dairy, honey, embellished garments, and medicinal and aromatic
    plants. Needs assessments for flood-affected female beneficiaries selected in the honey and medicinal
    and aromatic plants sectors are ongoing. So far, 6,000 female artisans who lost their inventories and
    small capital assets have received microgrants to build back their inventories and generate cash.
    Another 15,570 dairy farmers in Dadu and Larkana Districts have received microgrants for
    vaccinations against foot and mouth disease, oat seeds, mineral mixtures, and fertilizers to help them
    maintain the productivity and health of their animals. This immediate assistance is expected to
    increase the milk yield by 17 ounces a day per animal.

•   The Firms Project’s efforts to boost mango exports resulted in the first dry mango product retailed
    in the United States. The project devised a trial shipment and assistance plan for sending
    commercial shipments to high-end buyers in the European Union, the United Kingdom, and other
    promising markets for the 2011 mango season. An expression of interest was recently published in
    the national newspapers for engaging mango exporters and farmers certified in Global Good
    Agricultural Practice for this season’s mango shipments.

Focused Humanitarian and Social Services: Increased Access to and
Quality of Education and Health Services

This category of assistance aims to provide better quality education and health services to underserved
populations, particularly those living in areas likely to come under the sway of extremist groups. In
education, programs intend to improve facilities, bring more girls into the classroom, increase the use of
new educational technologies, and improve teachers’ skills. In health care, the goals are to improve
maternal and child care, provide family planning services, and prevent and treat diseases such as
hepatitis, polio, and tuberculosis. USAID is the primary U.S. Government agency contributing to this
area of assistance; USDA and PAS also manage programs in this area.


                                                                                                          19
USAID has 25 programs to support education and health services—3 were recently completed, 17 are
under way, and 5 are in the planning stage. These programs focus on improvement in basic and higher
education, maternal and child health, family planning, and polio eradication. (Another two programs
were cancelled due to USAID’s consolidation of its portfolio of programs.) Table 5 lists USAID’s
programs for education and health.

    Table 5. USAID’s Programs for Education and Health Services as of March 31, 2011

   Implementing Partner             Program Description                                Status
John Snow, Inc., Research and   Pakistan Initiative for Mothers
                                                                     Completed
Training Institute              and Newborns
                                Pakistan Safe Drinking Water
Abt Associates                                                       Completed
                                and Hygiene Project
                                Scholarships for men and
                                                                     Completed program; negotiating a follow-
Forman Christian College        women from vulnerable and
                                                                     on program to build a women’s dormitory
                                underserved areas
                                                                     Current; ongoing for 2 years—program will
                                Pre-Service Teacher Education
AED                                                                  be shifted to a new contractor by
                                Program (Pre-STEP)
                                                                     April 6, 2011
American Institutes for         Links to Learning—Education
                                                                     Current; contributing to flood recovery
Research                        Support to Pakistan (Ed-LINKS)
                                Children's Television Program
Rafi Peer Theatre Workshop      providing interactive teaching       Current
                                and learning
                                Pakistan and U.S. Science and
National Academy of Sciences                                         Current; funding disbursed
                                Technology Cooperation
                                Financial Aid Development
                                                                     Current; program to be terminated by
AED                             Program for Higher Education
                                                                     April 6, 2011
                                Commission
American University             Collaborative capacity building      Current; program to be terminated by
Washington College of Law       for human rights and gender          September 30, 2011
                                Budget support to Higher             Current; dollars disbursed and FY 2010
Government of Pakistan
                                Education Commission                 program content under negotiation
                                Fulbright scholarships (through
Government of Pakistan                                               Current; funding disbursed
                                DOS)
                                Family Advancement for Life and
                                Health Program for the               Current; to be completed in December
Population Council
                                diversification of family planning   2011
                                activities
Commodities Supply and          Contraceptive commodities for        Current; obligated $29,754,000 for
Logistics—multiple              the Ministries of Health and         procurement of condoms, oral pills,
implementing partners           Population Welfare                   intrauterine devices and injectables
                                                                     Current; plan completed for procuring
                                                                     commodities in 2011 and software
John Snow, Inc.                 Contraceptive logistic support
                                                                     prepared for the logistic management
                                                                     information system
                                                                     Current; three polio campaigns conducted,
UNICEF, WHO                     Polio eradication initiative         distributing over 253 million doses of polio
                                                                     vaccine




                                                                                                               20
    Implementing Partner               Program Description                                Status
Royal Netherlands Tuberculosis
                                   Tuberculosis Control Assistance
Association (Koninklijk                                                Current; tuberculosis prevalence survey is
                                   Program and National
Nederlandsche Centrale                                                 to be completed by December 2011
                                   Prevalence Survey
Vereeniging, or KNCV)
                                   Involvement of religious leaders
Pathfinder International           in health and development,          Current
                                   extending service delivery
Centers for Disease Control        Pakistan Field Epidemiology and     Current; ongoing for 4 years, fourth cohort
and Prevention                     Laboratory Training Program         of students inducted for training
                                   Developing and strengthening
Health Services Academy of                                             Current; ongoing for 2.5 years—scope of
                                   institutional capacity in public
Pakistan                                                               grant was recently enhanced
                                   health training and research
                                   Improve children’s health in
Save the Children                                                      Current; ongoing for 4 years
                                   FATA
                                                                       Planning stage; in negotiations; the
National Institute of Population
                                   Demographic and Health Survey       Government of Pakistan approved the
Studies (Pakistan)
                                                                       proposed activity
                                   Maternal and child health, family
Government of Pakistan                                                 Planning stage; in negotiations
                                   planning, and immunizations
                                   Higher education and training in
To be determined                                                       Planning stage; in negotiations
                                   health
Provincial Government of           Southern Punjab Basic Education     Planning stage; in negotiations, will include
Punjab                             Program                             flood-affected schools
                                                                       Planning stage; in negotiations, will include
Provincial Government of Sindh     Sindh Education Program
                                                                       flood-affected schools
                                                                       Cancelled; USAID is now focusing health
                                                                       assistance on the delivery of key health
                                   Integrated disease surveillance
Government of Pakistan                                                 services through provincial governments, as
                                   system
                                                                       delivery of health services will be the
                                                                       responsibility of the provinces
International School of            International School of
                                                                       Cancelled
Islamabad                          Islamabad

Source: USAID/Pakistan.

In response to USAID OIG’s request for information on the progress of these programs, USAID
provided its recently approved performance indicators. USAID recently received approval of its
performance management plan at the objective level. USAID reported that it is collecting project-level
indicators and targets to link project activities to the objective-level targets, and further noted that the
total list of targets for the objective level cannot be finalized until the activity-level indicators and targets
are fully established.  USAID also noted that progress on the indicators may be reported quarterly
instead of results, since some results may take several quarters to achieve. However, no information on
progress on the indicators was reported for the fiscal quarter. 

USAID identified the following approved FY 2011 indicators to be tracked and reported on:

•   Improved educational facilities.

•   Increased access to high-quality learning materials.


                                                                                                                  21
•   Improved student performance assessment.

•   Improved teaching skills of teachers.

•   Increased supply of clean drinking water.

•   Number of children under 5 who have received oral polio through U.S. Government support.

•   Number of children under 1 who have received a measles vaccination through U.S. Government
    support.

USAID reported the following examples of progress and success in it education and health programs:

•   Planning and implementation discussions involving USAID, the Ministry of Health, and provincial
    governments continue to ensure that Pakistani Government priorities are incorporated into all
    programmatic decisions.

•   Under the Merit and Needs-Based Scholarship Program, 1,807 students are continuing their
    education. Furthermore, the Higher Education Commission, in collaboration with 11 universities, is
    conducting an outreach program to offer more scholarships to female students in remote areas.

Despite the aforementioned successes, USAID also reported a number of problems, some repeated
from last quarter, that continue to affect the implementation of its education and health programs:

•   The Government of Pakistan does not have an approved health policy to guide and prioritize
    government or donor response to Pakistan’s needs, complicating the design of health programs.
    Although a draft national health policy document was finalized, the government still has not formally
    adopted it.

•   As a result of the 18th Amendment to the Constitution of Pakistan, responsibilities in the health
    sector will be devolved to provincial governments by June 30, 2011. The Ministry of Population
    Welfare closed its doors in December 2010. There is insufficient guidance from the Government of
    Pakistan on expected roles and responsibilities of federal, provincial, and district government actors
    in the health sector. The Government of Pakistan is identifying these operational procedures and
    practices, which differ among provinces because of differences in their institutional capacity.  With
    numerous government actors operating in this sector, challenges arise related to communication,
    coordination, and competition for funding.

•   Negotiations with the Provincial Government of Punjab to refine the precise activities and flow of
    funds for the Southern Punjab Basic Education Program continue. By the end of 2011, USAID
    expects to provide $6.25 million to the provincial government for first year of the program.

USDA. USDA’s programming in this category consists of the Food for Education Program, which
supports increased access to and quality of education and health services. To implement the program,
USDA awarded Land O’Lakes and the U.N. World Food Programme grants totaling an estimated


                                                                                                       22
$17 million. Under these two grants, USDA will supply an estimated 6,540 metric tons of commodities
to feed schoolchildren and an estimated $6 million to implement rehabilitation projects and capacity-
building measures for schools. USDA signed a Food for Education grant agreement with Land O’Lakes
in early September 2010, and in late January 2011, Land O’Lakes received its first year’s supply of
cooking oil. In early March, the cooking oil was distributed to female students in primary public schools
as an incentive to families to send their daughters to school. The oil was also distributed in health units
in the Jacobabad District to pregnant and lactating mothers.

PAS. As reported last quarter, PAS has two major programs that contribute to increased access to and
quality of education services. PAS supports a $35.7 million slate of academic and professional programs
designed to provide enhanced educational and professional skills, leadership training, and connections
with the United States for more than 6,000 Pakistanis. These programs range from short-term (3-week)
International Visitor Leadership Program exchanges to full academic degree programs, including English
Access Microscholarships that reach thousands of disadvantaged youth. In addition, PAS sponsors a
$16.4 million program of Fulbright exchanges, which over a period of years should increase substantially
the number of faculty at Pakistani colleges and universities with master’s and doctoral degrees.

Government Capacity Development: Improved National and Local
Governance

Programs in this category are intended to build capacity at the national, provincial, and local levels—
particularly in targeted vulnerable areas—to provide basic municipal services, promote civil society
advocacy and oversight, improve the administration and conduct of elections, improve the
responsiveness of political parties, promote greater gender equity, and strengthen systems for
accountability and transparency in public expenditures. USAID, USDA, and the U.S. Embassy’s PAS have
programs to strengthen government capacity and improve governance.

USAID has 26 programs to improve government capacity at the national and local levels—19 are under
way and 7 are in the planning stage. USAID’s programs in this category of assistance support
improvements in governance through an antifraud hotline and assistance with developing an energy plan
and energy and economic policy. USAID’s programs also include civil society support. (One program
was cancelled this quarter due to USAID’s consolidation of its portfolio of programs.) Table 6 lists the
status of USAID’s programs for national and local governance.

           Table 6. USAID’s Programs to Improve National and Local Governance
                                  as of March 31, 2011

 Implementing Partner                  Program Description                            Status
                                                                         Current; hotline operational in
Transparency International     Antifraud Hotline
                                                                         Feb. 2011
                               Anticorruption and Public Awareness
Transparency International                                               Current; ongoing since Jan. 2009
                               Program
International Republican
                               Three nationwide polls                    Current
Institute


                                                                                                            23
 Implementing Partner                    Program Description                               Status
International Foundation for                                                  Current; to be completed next
                                 Election Support Program
Electoral Systems                                                             quarter
                                                                              Current; 22 grants awarded to
Aurat Foundation                 Gender Equity Program                        Pakistani Government and
                                                                              nongovernment organizations
                                                                              Current; 17 grants totaling over
National Rural Support           Small Grants Program for unsolicited
                                                                              $1 million awarded for community
Program                          proposals and Chief of Mission Fund
                                                                              initiatives
                                                                              Current; contract complete this
                                                                              quarter; program will continue
Development Alternatives,
                                 FATA Capacity Building Program               under new contract with a
Inc.
                                                                              Pakistani organization; funds being
                                                                              disbursed
                                 Pakistan Energy Indefinite Quantity
                                 Contract to provide policy reform advisers
WAPDA                                                                         Current; funds being disbursed
                                 to support the USAID/Government of
                                 Pakistan energy partnership
                                 Power Distribution Improvement Program
International Resources
                                 to improve management capacity, financial    Current; operational audits under
Group/Pakistan Electric Power
                                 systems, billings and collections of         way; funds being disbursed
Company
                                 distribution companies
                                 Assistance to Balochistan to improve
FAO                                                                           Current; funds half-disbursed
                                 livelihoods and food security
                                                                              Current; agreement signed in
Dairy and Rural Development      Dairy Development Initiative/Rural
                                                                              January 2011; now introducing
Foundation (cofinanced by        Development Fund to improve milk
                                                                              management systems to reduce
Nestle Pakistan and USAID)       production and marketing
                                                                              “high-risk” classification
                                 Work with the Ministry of Petroleum and
U.S. Geological Survey           Natural Resources to assess conventional     Current; technical support
                                 and unconventional gas reserves
Advanced Engineering
                                 Energy policy and capacity building          Current; technical support
Associates International
                                 Improve production and marketing of
                                 commodities, enhance Government of           Current; agreement for fiscal year
USDA
                                 Pakistan research and extension work, help   2010 in development
                                 eradicate agricultural diseases
                                 Improve customs procedures and Pakistani
                                                                              Current; approximately 25 percent
Deloitte Consulting, LLC         Commercial Service to increase exports
                                                                              disbursed
                                 and trade at Afghan border
                                 Competitive Support Fund advisers
                                                                              Current; ongoing 4.5 years; funds
                                 provide technical assistance on policy
Ministry of Finance                                                           being disbursed and a follow-on
                                 decisions, regulatory frameworks, and
                                                                              activity in the planning stage
                                 public-private partnerships
U.S. Department of the           Tax, debt, and banking regulation advisers
                                                                              Current; agreement signed
Treasury                         to the Government of Pakistan
Multiple implementing
                                 Technical advisers embedded in Ministry of
partners (blanket purchasing                                                  Current
                                 Health and provincial units
agreement)
State Bank of Pakistan (others   Access to finance program for small and
                                                                              Current
to be determined)                medium-sized enterprises
                                                                              Planning stage; applications due
To be determined                 Political Party Development Program
                                                                              April 4, 2011


                                                                                                                 24
    Implementing Partner                 Program Description                                Status
To be determined                Religious tolerance                           Planning stage; in negotiations
                                Building the election commission’s capacity
Election Commission of
                                to maintain credible, accurate, and current   Planning stage; in negotiations
Pakistan
                                electoral rolls
                                Strengthen domestic capacity for policy
International Food Policy       analysis and advocacy to increase
                                                                              Planning stage
Research Institute              agricultural productivity and food security
                                and to reduce poverty
                                Media campaign to promote positive
To be determined                perceptions of the United States by
                                                                              Planning stage
(Pakistani organization)        improving Pakistanis’ awareness and
                                understanding of U.S. assistance activities
                                USAID/Pakistan missionwide monitoring         Planning stage; expect to issue
To be determined
                                and evaluation program                        request for proposals
Ministry of Information                                                       Planning stage; supported by PAS
                                e-Governance, National Data Center
Technology                                                                    Strategic Communications Fund
                                Urban planning and systems for municipal
FATA Secretariat                                                              Cancelled
                                governments in Bajaur Agency
Source: USAID/Pakistan.

In response to USAID OIG’s request for information on the progress of these programs, USAID
provided its recently approved performance indicators. USAID recently received approval of its
performance management plan at the objective level. USAID reported that it is collecting project-level
indicators and targets to link project activities to the objective-level targets, and further noted that the
total list of targets for the objective level cannot be finalized until the activity-level indicators and targets
are fully established.  USAID also noted that progress on the indicators may be reported quarterly
instead of results, since some results may take several quarters to achieve. However, no information on
progress on the indicators was reported for the fiscal quarter. 
 
USAID identified the following approved FY 2011 indicators to be tracked and reported on:
 
• Improved energy sector governance (one measurement being progress on the scorecard for the
    Electricity Governance Initiative Index).

•     Improved economic governance.

•     Improved governance of basic education.

•     Improved governance of provincial health departments.

•     Number of U.S. Government-assisted civil society organizations that demonstrate active
      participation in government decision-making processes.




                                                                                                                 25
In addition, USAID provided examples of progress and success in its governance assistance programs:

•   The antifraud hotline was formally launched in February 2011 at a workshop USAID cosponsored
    for its Islamabad-based implementing partners on fraud awareness. The workshop also provided
    information about the hotline.

•   The Small Grants Program and the Ambassador’s Fund together distributed more than $1 million to
    17 civil society organizations throughout Pakistan, 11 of which provided post-flood assistance. All
    programs support community initiatives that respond to citizens’ priorities.

•   The Gender Equity Program awarded 22 grants totaling nearly $900,000 to Pakistani NGOs and
    Pakistani Government organizations. The grants included 15 rapid response grants for flood-
    affected women in crisis, 5 grants for government-sponsored Women’s Crisis Centers, and 2 grants
    for policy research in partnership with the National Commission on the Status of Women. To
    create a mechanism for government ownership and strategic direction, a National Advisory Forum
    has been launched with provincial and federal government representatives.

USAID also reported challenges to implementing its programs for improved governance:

•   The Provincial Reconstruction, Rehabilitation and Settlement Authority, the Government of Pakistan
    entity that is USAID’s implementing partner on the Malakand Reconstruction Program, is new and
    lacks financial management experience, which has contributed to the delay in the release of U.S.
    assistance.    USAID’s FATA office is working closely with the Provincial Reconstruction,
    Rehabilitation and Settlement Authority to improve its capacity.

•   As reported in September 2010, securing government buy-in in FATA remains a key challenge for
    any program focused on improving governance. Weak coordination among the Government of
    Pakistan’s civilian and military institutions is also an obstacle to coordinating actions and making
    progress.

USDA. USDA manages three types of efforts to build Pakistani institutional capacity in the agricultural
sector:

•   Endowments. Endowments support agricultural research and development activities in accordance
    with Pakistan’s long-term development goals and to promote scientific cooperation between
    Pakistani and U.S. agricultural scientists. Since 2000, USDA has established six endowments totaling
    $56.7 million.

•   Exchanges. Exchange programs for technical assistance develop linkages between Pakistani scientists
    and their counterparts in the United States. USDA plans to expand the number and quality of
    exchanges between Pakistani and U.S. scientists to improve the capacity of Pakistan’s agricultural
    research system. USDA is currently reviewing exchange program proposals to implement in 2011.




                                                                                                      26
•   Trilateral meetings. The Trilateral (Afghanistan-Pakistan-United States) Secretariat on Agriculture was
    scheduled to meet in February 2011 in Washington, D.C. However, because of the political
    situation in Lahore, the trilateral meeting was cancelled and has not yet been rescheduled.

PAS. PAS continues to contribute to government capacity building through its communications
programs. PAS reported on two programs, one supporting the development of regulatory policy for
telecommunications and the other arranging government exchanges.

As noted last quarter, as an element of the National Data Center for Pakistan (described under high-
impact, high-visibility programs), PAS will also assist the Ministry of Information Technology in building the
legal infrastructure for a modern telecommunications regulatory policy. Because telecommunications
policy development is a Strategic Dialogue initiative, PAS will facilitate consultations between Ministry
officials and their counterparts in the United States.

PAS will also continue administration of exchanges for midcareer government professionals, including
graduate degree programs for Pakistani diplomats, internships for journalists, and special international
visitor leadership programs for government spokespersons and water resource managers. During the
reporting period, PAS arranged three exchanges for 36 government officials, NGO staff, academics, and
journalists who directly supported ongoing flood relief efforts. The leadership exchanges covered water
supply and national disaster management and communications and the role of spokespersons.

Government Capacity Development: Improved Security and Legal
Institutions

This category targets areas prone to conflict and those with a weak government presence. Assistance
focuses on improving policing and expediting the disposal of legal cases through the court system. The
U.S. Embassy’s Narcotics Affairs Section (NAS), Regional Security Office (RSO), and PAS support
assistance programs in this category.

NAS. As previously reported, NAS, in coordination with other U.S. law enforcement agencies in
Pakistan, manages five programs that support improved security and legal institutions. These programs
address counternarcotics, border security and related infrastructure, law enforcement reform through
police and prosecutor training, and support for the Ministry of Interior’s Air Wing. According to NAS,
all of its projects are implemented in partnership with the Government of Pakistan, and the
infrastructure projects use Pakistani contracting mechanisms.

During the reporting period, NAS and the Government of Pakistan signed four letters of agreement
totaling $8.5 million. The funds will support the provision of commodities for the Balochistan police, the
Anti-Narcotics Force, and a corrections program.

To measure the progress of its new programs, NAS identified the following performance indicators:

•   Amount of equipment delivered
•   Time for equipment to arrive at port of entry
•   Number of corrections officers trained

                                                                                                           27
NAS reported the following successes for its current programs:

•   Number of hours flown by the Air Wing under the aviation program. During the reporting period, the
    Air Wing program logged 597 hours. Missions of note included support of Pakistan Anti-Narcotics
    Force operations along the Iran and Afghanistan borders; support of the Frontier Corps, a
    paramilitary force in Pakistan recruited mostly from tribal areas and led by officers in the Pakistan
    army, in Balochistan and in Khyber Pakhtunkhwa; aerial surveillance in the cities of Islamabad,
    Lahore, Multan, Karachi, and Peshawar; and missions to support visits by several congressional
    delegations and the U.S. Ambassador.

•   Number of kilometers of road constructed and percentage of other infrastructure projects completed under
    the infrastructure program. A counternarcotics road is under construction in the Prang Ghar region
    of Mohmand Agency. In Khyber Agency, construction of the Mattani Bypass and Landi Kotal Bypass
    roads is under way.

•   Number of law enforcement officials trained, number of police facilities reconstructed or rehabilitated, and
    amount of equipment delivered under the Civilian Law Enforcement Reform Program. Four hundred and
    seventy-one law enforcement officials from across Pakistan received training on topics ranging from
    basic criminal investigations to training management.

•   Amount of equipment delivered under the Civilian Law Enforcement Reform Program. A procurement of
    nearly $15 million worth of commodities for the Khyber Pakhtunkhwa police is under way.
    Commodities worth nearly $3.5 million were delivered to law enforcement agencies in FATA and
    Khyber Pakhtunkhwa. Commodities such as training supplies, generators, communication
    equipment, and appliances, valued at $159,592, were ordered for the Islamabad police, the Anti-
    Narcotics Force, Frontier Corps, and other law enforcement entities.

NAS reported that although its programs are making progress, challenges have slowed implementation:

•   Police facilities across the country continue to be targeted, with police trainers being the targets of
    suspicion. Police trainers’ names and passport numbers have been leaked to the press in articles
    alleging the trainers are spies. NAS continues to monitor threat reporting closely and take every
    possible precaution to ensure the safety of police instructors.

•   Safe training facilities are also a concern. Like other police facilities, police academies and training
    sites are targets for terrorist attacks. NAS reported that the risk of such an attack increases when
    American instructors are present. The lack of secure training space severely limits the training NAS
    can provide.

•   Despite improvement last quarter, the Government of Pakistan is backsliding on efficient issuance of
    visas for NAS program staff. In particular, visas issued this quarter to police trainers continue to
    limit their stay in Pakistan to 30 days. In addition to the visa problem, clearances for access to the
    Air Wing compound are tightly controlled and often denied by the Frontier Corps-Balochistan.


                                                                                                             28
RSO. The RSO at the U.S. Embassy in Islamabad reported on its antiterrorism assistance. The RSO
provides a full range of tactical and investigative courses and support to Pakistani federal and provincial
law enforcement agencies, especially those operating in Khyber Pakhtunkhwa and Balochistan. During
the reporting period, the RSO conducted ten courses and trained 192 officers. Two of the ten
courses—on the protection of high-ranking officials and crisis response—were instructor development
courses for Pakistani trainers.

PAS. PAS also contributes to this category of assistance by supporting exchange programs. These
include short-term visits for Pakistani border control officers to meet and work with their counterparts
in the United States, strengthening partnerships and exchanging ideas.

Assistance to Pakistani Institutions

To ensure greater Pakistani responsiveness and increase the sustainability of civilian programs, the
United States plans to implement more programs through Government of Pakistan institutions, including
national and provincial governments and NGOs. 5 The purpose of this shift is to:

•      Align programs with locally identified priorities.
•      Build Pakistanis’ sense of ownership of programs.
•      Build Pakistani institutional and leadership capacity for better fiscal management.
•      Promote decentralization to more actively engage provincial and local partners and beneficiaries.
•      Deliver on-budget assistance 6 to promote transparency, harmonization, and better budget planning
       by the Government of Pakistan.
•      Reduce costs.

According to USAID, it made 61 awards totaling nearly $1.268 billion during FY 2010; during the first 6
months of FY 2011, it made an additional 25 awards totaling about $182.2 million to Pakistani
institutions (Table 7). USAID reported making 12 awards totaling approximately $144.9 million during
the reporting period. Awards made by USAID fall into one of the following four categories: budget
support (cash transfers), direct funding for federal government projects, direct funding for provincial
government projects, and awards to Pakistani NGOs.



                                                            
5
   The Enhanced Partnership with Pakistan Act of 2009 encourages the use of Pakistani firms and NGOs, as
appropriate, to implement the democratic, economic, and development assistance programs authorized under
Title I of the act (Section 101(c)(3)).
6
  Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as
possible will help the Government of Pakistan meet the fiscal targets required by the International Monetary Fund
and raise Pakistanis’ awareness of where U.S. funds are going and how they harmonize with resources from the
Government of Pakistan and other donors. On-budget assistance should also help reduce disruptions in
implementation by enabling federal and provincial governments to improve budget planning and cash-flow
management.

                                                                                                              29
USAID reported that 64 percent of all ongoing projects support government-to-government activities.
Initial plans to provide 45 percent of FY 2010 resources for such activities will be supplemented
(pending final congressional approval) with funds from the $500 million program being planned to
support the Government of Pakistan’s flood recovery effort.

Prior to disbursing funds, however, USAID’s Office of Financial Management performs preaward
assessments of all prospective partner organizations. The assessments examine organizational and
management structure, accounting, financial management systems, internal controls, technical
capabilities, and quality assurance capabilities, as well as the organizations’ policies, procedures, and
practices for effective and efficient management of USAID/Pakistan resources. To date, USAID has
completed 41 preaward assessments, including 6 this quarter on the following organizations:

1. Semiotics Consultants (Private) Limited

2. Ministry of Health— seven programs

3. Sindh Rural Support Organization

4. Agribusiness Support Fund

5. Trust for Democratic Education and Accountability

6. Balochistan provincial government—15 departments

USAID also reported that it had two preaward assessments under way, one for the Punjab provincial
parliament and the other for the Auditor General of Pakistan.

              Table 7. Assistance to Pakistani Institutions Since October 1, 2011

                                                                       Number           Value($)
                                 Type                                    of                of
                                                                       Awards          Obligations
 Budget Support* (Cash Transfers)                                           0                      0

 Direct Funding for Federal Government Projects                             8           128,181,556

 Gomal Zam Multi-Purpose Dam, WAPDA†                                        1             40,000,000

 Satpara Multipurpose Dam, WAPDA†                                           1             26,000,000

 Tank-Kaur and Kaur-Jandola Road, FATA Secretariat†                         1              5,124,925

 Wana Grid station upgrade, FATA Secretariat†                               2              5,800,000

 Kaur-Gomal-Tanai-Wana Road, FATA Secretariat†                              1             33,600,000
 Reactivation and rehabilitation of damaged transformers, FATA
                                                                            1              8,800,000
 Secretariat†
 Swat widening/improvement of FATA Road, FATA Secretariat†                  1              8,856,631


                                                                                                       30
                                                                               Number               Value($)
                                     Type                                        of                    of
                                                                               Awards              Obligations
    Direct Funding for Provincial Government Projects                               1                6,250,000

    Southern Punjab Basic Education Program                                         1                 6,250,000

    Awards to Pakistani NGOs                                                       16               47,731,092

    Habib-Rafique (Pvt.) Ltd./ CDM Constructors, Inc., Parliamentary
                                                                                    1                   464,359
    Institute Building†
    Dairy and Rural Development Foundation (smallholder dairy project)†             1                 2,500,000
    Khushhali Bank, disbursement agent for Tubewell Efficiency
                                                                                    1                13,624,581
    Improvement Program†
    Voice Tel Tech, assessment of monitoring and evaluation of cash
                                                                                    1                   149,080
    transfers†
    Apex Consulting, monitoring of OFDA flood relief in Sindh                       1                   149,480

    Community Uplift Program, monitoring of OFDA flood relief in
                                                                                    1                   149,009
    Balochistan

    Key Chain Films, production of videos on development activities                 1                    50,000

    KPMG Taseer Hadi & Co., accelerated capacity building of the Provincial
                                                                                    1                   710,413
    Reconstruction, Rehabilitation and Settlement Authority (modification)
    Rural Support Programmes Network, Sindh Agriculture Recovery
                                                                                    1                15,000,000
    Project

    Voice Tel Tech, monitoring of OFDA flood relief in Khyber Pakhtunkhwa           1                   147,085

    Voice Tel Tech, monitoring of OFDA flood relief in Punjab                       1                   147,085

    Associates in Development, Assessment and Strengthening Program                 1                 1,642,550

    Lahore University of Management Sciences, Assessment and
                                                                                    1                 3,856,775
    Strengthening Program
    Rural Support Programmes Network, Assessment and Strengthening
                                                                                    1                 4,100,675
    Program
    Ambassador’s Fund – National Rural Support Program (small grants and
                                                                                    1                 5,000,000
    incremental funding)
    Transparency International, Anticorruption Program Pakistan II
                                                                                    1                    40,000
    (incremental funding)

    Total                                                                          25              182,162,648
Source: USAID/Pakistan.
* For budget support, U.S. assistance funds are comingled with other budgetary resources available to the Pakistani
Government, and accounting for how the U.S. funds have been used is not possible. For project assistance, U.S.
funds are normally segregated in separate bank accounts, and the Pakistani Government is required to keep books
and records that show how assistance funds are spent.
†   Awards made to Pakistani institutions during the reporting period, January 1–March 31, 2011.

                                                                                                                  31
Staffing
The U.S. Mission in Pakistan—including USAID and Embassy components 7 —is increasing staffing levels in
Islamabad and at regional offices in Peshawar, Lahore, and Karachi.

As shown in Table 8, USAID reported a total of 235 staff (57 U.S. direct-hires and 178 others) as of
March 31, 2011. Since the last quarterly report, the mission has increased its staff by seven positions.
However, with a fiscal year 2011 target of 299 staff, USAID/Pakistan remains understaffed by 64
positions. According to the Pakistan Assistance Strategy Report, USAID, as the lead and largest manager of
assistance funds among U.S. Government agencies, will need to increase its project management, legal,
financial management, and procurement staff significantly.

                                   Table 8. USAID Staffing in Pakistan as of March 31, 2011

                                                                                                         Difference from
               Category                           Islamabad        Peshawar   Lahore   Karachi   Total    December 31,
                                                                                                               2010
    U.S. direct hire                                       50          3        3         1        57          +4
    U.S. staff from other                                      0       0        0         0         0          -1
    departments and
    agencies*
    U.S. personal services                                 16          4        0         0        20          -1
    contractors
    Third-country nationals                                    8       0        0         0         8          0


    Foreign Service Nationals                            100          19        8         5       132          +3
    (Pakistani staff)

    Eligible family members                                    5       0        0         1         6          0
    Long-term temporary-                                   12          0        0         0        12          +2
    duty staff†
    Total Staff                                          191          26        11        7       235          +7
    Staff Target 2011                                                                             299
    Staff Shortfall                                                                                64

    * The staff member who left during the quarter was detailed from the U.S. Department of Agriculture.
    † USAID/Pakistan reported that long-term temporary-duty staff (defined as being in Pakistan for a year) filling
    vacant positions counted toward the total number of USAID/Pakistan positions.




                                                            
7
  NAS reported that it had up to 130 staff and contractors on board as of March 31, 2011, including 6 U.S. direct
hires. PAS reported that it had 21 direct hires on board as of that date.

                                                                                                                       32
Risks and Mitigation Strategies
U.S. Government agencies and oversight entities identified risks that could jeopardize the U.S.
Government’s assistance program in Pakistan and identified accompanying mitigation strategies. Since
the last quarterly report, no major new risks emerged. However, given recent developments, it is
worth highlighting two previously identified risks:

•   Political risks. During the reporting period, Pakistan experienced turmoil stemming from political,
    economic, and legal issues. Such turmoil can limit the progress of the Government of Pakistan and
    the U.S. Government in delivering an effective assistance program.

•   Resistance to economic reform. Entrenched interests may resist policy reforms needed to transform
    the economy. According to USAID, if fundamental reforms are not implemented, assistance from
    the United States and other donors will have limited long-term effects. The International Monetary
    Fund, through its standby agreement is pressing very specific economic reform targets. Without
    economic reforms, the U.S. assistance program will have limited impact on the economy of Pakistan
    or on the livelihoods of Pakistanis.

In addition to the risks described above, several challenges identified in previous quarterly reports on
the civilian assistance program remain:

•   Reprogramming of funds for flood recovery. The United States pledged to direct roughly $500 million of
    its budget toward flood recovery. These actions promoted early recovery and the replacement of
    damaged infrastructure. When previously planned projects are postponed or eliminated, the
    assistance program loses momentum in planning and implementation, frustrating some Pakistani
    stakeholders. However, the Government of Pakistan and the United States Government have
    coordinated reprogramming to maintain resources for the highest-priority programs and activities in
    support of mutually agreed-upon developmental and humanitarian assistance priorities.

•   Flood-related insecurity. More than 20 million Pakistanis were affected by the floods, and many are still
    in camps of temporary shelters, which can feed disillusionment and instability.

•   Vulnerability to natural disasters. Pakistan is prone to earthquakes and flooding, which hinder the
    implementation of projects in disaster-affected areas. In January 2011, only months after the
    country’s worst flooding, Pakistan experienced a major earthquake with magnitude of 7.2.
    Fortunately, the earthquake occurred in a sparsely populated area and the damage was minor.

•   Adverse environmental impact. USAID/Pakistan conducts environmental assessments before disbursing
    funds for projects. One recent assessment identified risk associated with building a road in South
    Waziristan from Tank to Wana to Makeen. To mitigate this risk, the USAID office in FATA will
    take necessary steps to mitigate environmental concerns before building portions of the road,
    delaying the project somewhat.

                                                                                                          33
•      Leadership turnover. Turnover is high in entities of the Government of Pakistan that deal with
       agriculture and in economic and social service ministries. Such turnover affects planning,
       coordination, and implementation of programs. USAID will continue to work closely with all
       government counterparts, involving DOS colleagues as necessary to ensure coordination and
       implementation of agricultural programs.

•      Limited institutional capacity. Limited institutional capacity—especially in the FATA, Khyber
       Pakhtunkhwa, and Balochistan—means extra efforts must be made to mitigate against resources
       being lost through inefficiency, theft, or general lack of capacity to handle large amounts of funding.

•      Inadequate financial management in Government of Pakistan institutions. The U.S. Government and
       Government of Pakistan have collaborated to introduce special accounts for US budget support
       assistance to address financial challenges and to maintain a high degree of accountability. However,
       financial management, accountability, and reporting challenges continue.

•      Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
       conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA, and
       Khyber Pakhtunkhwa, and to actively engage Pakistani officials in project design.

•      Terrorist threats to the United States. A successful terrorist attack originating in Pakistan but carried
       out on U.S. soil could damage the U.S.-Pakistan relationship. The heightened risk of such an attack
       was underscored by Administration officials in their testimony before the Senate Committee on
       Homeland Security and Governmental Affairs in September 2010. 8

As described above, security is an ongoing challenge that limits the ability of civilians to provide
assistance in certain vulnerable areas, as well as USAID’s ability to monitor and evaluate programs.
USAID is meeting the challenge by expanding its regional offices in Peshawar and Lahore and its use of
Pakistani firms to conduct site visits. In addition, USAID/Pakistan is making some progress on a
solicitation for a missionwide monitoring and evaluation program: the request for proposals will be sent
out next month.

To maximize aid effectiveness and sustainability, USAID/Pakistan is committed to providing assistance
through Pakistani institutions. This policy is intended to increase the number of USAID partnerships,
although many of these new partnerships will be with institutions that have limited capacity to plan and
implement projects because of limited staff or a lack of experience with the U.S. Government financial
management requirements. To address this concern, USAID/Pakistan is supporting technical advisers
and units within government ministries receiving USAID funding to help manage specific programs and
mentor ministry staff. Moreover, USAID is funding certified public accounting firms to conduct
preaward assessments to help ensure that potential recipients of USAID assistance meet U.S.
transparency and accountability standards. These assessments also determine the capacity needs of
potential partners so that USAID can work with them to build those capacities. In addition, USAID
increasingly relies on fixed-amount reimbursement as a mechanism to disburse funding to Pakistani

                                                            
8
    “Nine Years After 9/11: Confronting the Terrorist Threat to the Homeland,” September 22, 2010.

                                                                                                             34
institutions. This mechanism requires progress to be achieved before funding is released to the
implementing partner.

In addition to these USAID strategies, USAID OIG has taken the following steps to ensure that U.S.
Government funds are protected against waste and theft:

•   Establishing field offices in Pakistan for the USAID and DOS OIGs. As of March 31, 2011, USAID OIG
    had 14 permanent staff in Islamabad (9 U.S. direct hires and 5 Foreign Service National employees),
    supplemented by staff on temporary duty. DOS OIG established its field office at the U.S. Embassy
    in Islamabad in October 2010; the office director has been assigned to Pakistan, and two evaluators
    arrived in March 2011.

•   Conducting risk assessments of awards to U.S.-based entities working in Pakistan. In fiscal year 2010,
    USAID OIG conducted risk assessments of 18 awards to prioritize the financial reviews to be
    performed of U.S. entities operating in Pakistan. Of the 18 awards, auditors considered 5 to be high
    risk and suggested that USAID/Pakistan conduct financial reviews of those implementing the high-
    risk awards. To date, two financial reviews have been completed, two are planned, and one was
    canceled (the award was terminated early).

•   Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
    provided to Pakistani NGOs. Since the passage of the Enhanced Partnership with Pakistan Act on
    October 15, 2009, USAID OIG has added 11 audit firms to its list of eligible audit firms in Pakistan.
    As of March 31, 2011, USAID OIG’s roster included 22 eligible audit firms to call on.

•   Providing training to Pakistani public accounting firms and to the Office of the Auditor General. The training
    covers standards and requirements for financial audits of U.S. Government funds. As of March 31,
    2011, USAID OIG had provided training to 21 public accounting firms (42 participants) and 16
    nongovernmental organizations (31 participants)—totaling 73 participants. Last year, USAID OIG
    provided training to 21 auditors from the Office of the Auditor General.

•   Providing training to USAID’s contracting and agreement officers’ technical representatives and financial
    analysts. The training covers the standards and requirements for financial audits of U.S. Government
    funds. As of March 31, 2011, USAID OIG had provided four training seminars to 52 staff members
    working at USAID/Pakistan. USAID OIG also trained 26 staff from ten provincial government
    ministries.

•   Helping the Office of the Auditor General conduct financial audits. USAID OIG helps the office conduct
    financial audits of funds provided by USAID/Pakistan to Pakistani Government entities by reviewing
    the statement of work between the mission and the Office of the Auditor General for each audit
    conducted, attending entrance and exit conferences, reviewing the Auditor General’s audit program,
    and approving the draft and final reports to ensure that the audits were performed in accordance
    with government auditing standards. USAID OIG continues to meet monthly with the Auditor
    General to review the status of ongoing audits.




                                                                                                               35
•      Working with Pakistan’s National Accountability Bureau (NAB). 9 USAID OIG established a working
       relationship with NAB in early 2010. In December 2010, the NAB Director General of Operations
       and the NAB Chairman met with the USAID Inspector General. The meeting affirmed cooperation
       on ongoing investigations and continued coordination between the two organizations. On
       February 17, 2011, OIG, along with USAID/Pakistan, Transparency International Pakistan, the
       Auditor General of Pakistan, the Pakistan Public Procurement Regulatory Authority, and NAB,
       cosponsored a fraud-awareness conference in Islamabad for USAID implementing partners. The
       118 participants included representatives of American and Pakistani NGOs, international public
       organizations, and representatives of both USAID and Pakistani Government ministries.

•      Collaborating with USAID/Pakistan to establish an antifraud hotline in Pakistan. The antifraud hotline
       hotline, while fully operational in early February, was formally launched during a fraud-awareness
       conference held in Islamabad on February 17, 2011. The 5-year project is funded by a cooperative
       agreement between USAID/Pakistan and Transparency International Pakistan in partnership with the
       Office of the Inspector General, although OIG is solely responsible for handling complaints received
       through the hotline. As of March 31, 2011, the hotline had received 516 complaints, of which more
       than half concern the delivery of flood relief services.

•      Providing fraud-awareness briefings and expanding investigatory coverage. During the reporting period,
       OIG special agents in Pakistan gave 11 fraud-awareness briefings attended by 244 USAID, U.S.
       Consulate, and contractor personnel.

•      Coordinating audits and investigations with other U.S. agencies. USAID OIG works with other OIGs, the
       GAO, and law enforcement agencies including the Federal Bureau of Investigation’s International
       Corruption Unit, the National Procurement Task Force, and the U.S. Embassy’s Legal Attaché
       Office.




                                                            
9
 NAB is the primary law enforcement agency in Pakistan responsible for investigating white-collar crime and public
corruption, and it is Pakistan’s only law enforcement agency authorized to conduct investigations in FATA.

                                                                                                               36
Oversight Status
USAID Office of Inspector General

USAID OIG oversees foreign assistance programs administered by USAID, the United States African
Development Foundation, the Inter-American Foundation, and the Millennium Challenge Corporation.
USAID OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002.
In recent years, OIG has covered a wide array of USAID programs in Pakistan, for relief and
stabilization, reconstruction, sustainable development, education, and health care. USAID OIG’s
oversight activities include performance audits, financial audits, and investigations.

Work Completed Since January 1, 2011

From January 1 through March 31, 2011, USAID OIG completed one performance audit:

•   Audit of USAID/Pakistan's Flood Relief Efforts as Administered by Local
    Nongovernmental Organizations (Report No. 5-391-11-003-P, January 24, 2011). This
    audit determined that two Pakistani NGOs contracted by USAID/Pakistan delivered food hampers,
    hygiene kits, and medical supplies to meet the immediate needs of the flood victims. As of
    November 15, 2010, the NGOs—Pakistan Poverty Alleviation Fund, which received $2.7 million,
    and Rural Support Programmes Network, which received $2.3 million—reported distributing food
    and hygiene kits to 80,098 households and administering medical supplies and treatment to an
    affected population of 159,620 people and 307,116 livestock, meeting their goals. These immediate
    relief efforts were in response to the recent floods in Pakistan that affected over 20 million people
    in 74 districts. The audit report did not make any recommendations.


Work Under Way

As of March 31, 2011, USAID OIG had three performance audits and seven financial audits in process:

•   Audit of USAID/Pakistan’s Management of Preaward Assessments of Governmental
    and Local Organizations in Pakistan. A key aspect of USAID/Pakistan’s management strategy is
    to conduct preaward assessments of Pakistani federal and provincial governmental agencies and local
    organizations that have been selected to receive USAID funds. The surveys are to determine
    whether the assessed entity has the necessary organization, experience, accounting and operational
    controls, and technical skills to manage and account for these funds. As of September 30, 2010,
    USAID/Pakistan had completed 60 preaward assessments. The audit is determining (1) whether
    USAID/Pakistan’s preaward surveys provide a reasonable basis for identifying vulnerabilities that
    could result in waste or misuse of U.S. Government resources and (2) whether USAID/Pakistan
    effectively addressed the deficiencies noted for those identified as high-risk recipients.




                                                                                                      37
•   Audit of USAID/Pakistan’s Road Rehabilitation and Reconstruction Activities Under
    the Quick Impact Projects in South Waziristan. This audit is determining whether the
    specified activities are achieving the mission’s goal of rebuilding selected roads.

•   Audit of USAID/Pakistan’s Firms Project. This audit will determine whether the project is
    achieving its main goals of strengthening the business sector and improving firms’ productivity and
    quality.

•   Financial Audit of USAID Funds Managed by the Ministry of Finance, Government of
    Pakistan, for the Education, Health, and Clean Drinking Water Budget Lines, for the
    Period June 15, 2007, to June 30, 2008, and for the Government of Pakistan Rural
    Landless Compensation Policy Budget Line, for the Period June 15, 2007, to
    December 31, 2009.

•   Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
    Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement for
    Internally Displaced Persons, for the Period July 1, 2009, to June 30, 2010.

•   Financial Audit of USAID Funds Managed by the Higher Education Commission Under
    the Merit and Needs-Based Scholarship Program, for the Period July 2, 2004, to
    June 30, 2010.

•   Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
    Statistics (Economics Affairs Division) Under the Cash Transfer Grant Agreement for
    the Benazir Income Support Program, for the Period July 1, 2009, to June 30, 2010.

•   Financial Audit of the USAID/Pakistan Trust Fund for Operating Expenses, for the
    Fiscal Years Ended September 30, 2007, 2008, and 2009.

•   Financial Audit of USAID Resources Managed by Children’s Global Network Pakistan
    Limited Under the Interactive Teaching and Learning Program in Pakistan (Close-Out
    Audit) and Subaward Through American Institutes for Research, for the Period July 1,
    2008, to February 26, 2010.

•   Financial Audit of USAID Resources Managed by Forman Christian College Under the
    Development of a Four-Year Bachelor Degree Program and Strengthening of Basic
    Science and Information Technology Program (Close-Out Audit), for the Period
    July 1, 2009, to March 31, 2010.

In addition, USAID OIG closed four investigations during the reporting period and has 18 open cases.
Also during the reporting period, USAID OIG hosted a fraud-awareness conference, formally launched
the USAID OIG Pakistan hotline, initiated a number of investigations based on hotline allegations, and
uncovered additional details related to the suspension of a USAID implementing partner:

•   USAID OIG Cohosts Fraud-Awareness Conference in Pakistan. On February 17, 2011,
    USAID OIG—along with USAID/Pakistan, Transparency International Pakistan, the Auditor General

                                                                                                    38
    of Pakistan, the Pakistan Public Procurement Regulatory Authority, and NAB—cosponsored a fraud
    awareness conference in Islamabad for USAID implementing partners. The 118 participants included
    representatives of American and Pakistani NGOs, international public organizations, and
    representatives of both USAID and Pakistani Government ministries. USAID OIG Pakistan formally
    launched the hotline during the conference.

•   OIG Pakistan Hotline Is Fully Operational. On February 1, 2011, the USAID OIG Pakistan
    hotline became fully operational. The 5-year project is funded by a cooperative agreement between
    USAID/Pakistan and Transparency International Pakistan; however, USAID OIG is solely responsible
    for handling complaints. Complaints can be lodged through telephone operators who speak English,
    Sindhi, Urdu, and Pashto or by e-mail, Internet, facsimile, mail, or in person. The hotline is
    advertised on television and radio, in the newspaper, and on billboards located throughout Pakistan.
    As of March 31, 2011, the hotline had received 516 complaints, of which more than half concern the
    delivery of flood relief services. These complaints will be referred to USAID or the implementing
    partner responsible for the project in question. To date, OIG has initiated four investigations based
    on allegations received by the hotline.




      On Masoom Shah Road in Multan, Punjab Province, a billboard announces the hotline to passersby.
      (Photo by Transparency International-Pakistan).



                                                                                                        39
•   USAID Suspends Contractor for Serious Corporate Misconduct. USAID suspended AED
    from receiving new government awards after initial inquiries by OIG revealed evidence of serious
    corporate misconduct, mismanagement, and a lack of internal controls. As reported in our previous
    quarterly reports, OIG found evidence of fraud related to various aspects of a $150 million
    cooperative agreement, which was subsequently terminated by USAID/Pakistan. The OIG
    investigation later uncovered evidence that certain members of AED’s senior headquarters staff
    became aware of potentially millions of dollars of disallowable costs because of collusion and
    overcharging by vendors on the Pakistan project but repeatedly failed to disclose this information to
    USAID. AED announced the retirement of its chief executive officer and required the departure of
    four other senior executives to address the inadequate reporting and the management deficiencies
    uncovered by the investigation. In addition to issues related to collusion and overcharging by
    vendors, the OIG investigation revealed several infrastructure projects managed by AED in Pakistan
    that failed to meet required USAID specifications. An OIG investigation of another AED project in
    Afghanistan revealed significant internal control issues resulting in the use of a purchasing process
    that violated the competitive procurement standards of both AED and USAID. While some of
    these issues were identified during a 2008 internal audit conducted by AED, they persisted until the
    end of the project in late 2010.

Work Planned for the Remainder of FY 2011

For the remainder of FY 2011, USAID OIG expects to conduct three performance audits and one
financial audit:

•   Audit of USAID/Pakistan’s Pre-Service Teacher Education Program (Pre-STEP). This
    audit will determine whether the program is helping teachers improve their professional
    qualifications.

•   Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program. This audit will
    determine whether the program is promoting energy efficiency and conservation and building the
    capacity of public sector organizations to better address the needs of the energy sector.

•   Audit of USAID/Pakistan’s Community Rehabilitation Infrastructure Support Program.
    This audit will determine whether the program is constructing and renovating community
    infrastructure that will improve delivery of basic services such as education, health care, water
    supply, sanitation, electricity, and transportation and promote economic growth in rural areas.

•   Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
    Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement for
    University and Technical Education in FATA Through the Pakistan Higher Education
    Commission, for the Period September 30, 2009, to June 30, 2010.




                                                                                                      40
Department of State Office of Inspector General

Work Completed Since January 1, 2011
From January 1 through March 31, 2011, DOS OIG completed one performance evaluation:

The Bureau of Population, Refugees and Migration’s Internally Displaced Persons Program
in Pakistan (Report No. MERO-1-11-01). The objectives of this evaluation were to determine (1)
whether assistance is reaching intended targets, (2) whether program performance measures were
established and achieved, and (3) how procurement strategies are planned and implemented. While the
evaluation found that the DOS Bureau of Population, Refugees and Migration’s (PRM) key partners—the
U.N. High Commission for Refugees (UNHCR) and the International Committee of the Red Cross
(ICRC)—reached the short-term goal of humanitarian assistance by preventing outbreaks of major
epidemics, malnutrition, and starvation and assisted more than 2.7 million IDPs, DOS OIG could not
determine the overall effectiveness of assistance provided by UNHCR and ICRC because neither
organization reports its performance results against performance targets or indicators. The report
makes three recommendations to PRM to encourage improvements in performance reporting of its
implementing partners, UNHCR and ICRC. The final report was issued on January 10, 2011.

Work Under Way
As of March 31, 2011, DOS OIG had two performance evaluations under way:

•   Review of the U.S. Mission Pakistan’s Local Security Program (Performance
    Evaluation). The review will examine and summarize the requirements and provisions of the U.S.
    Mission in Pakistan’s local security force contracts, including the objectives of the contracts and task
    orders, indicators established to measure performance, and internal controls over the contractors’
    performance and contract costs.

•   Review of Embassy Islamabad Antiterrorism Assistance Program in Pakistan
    (Performance Evaluation). This review will examine the requirements and provisions of the
    Antiterrorism Assistance Program and associated contracts for Embassy Islamabad. Specifically, the
    review will (1) determine the degree to which antiterrorism training programs have achieved their
    intended outcomes, (2) assess whether contracts for antiterrorism training and equipment are
    effectively managed, and (3) validate controls over foreign government equipment provided in
    support of the training programs.

Work Planned for the Remainder of FY 2011

DOS OIG has three evaluations planned for FY 2011:

•   Review of Internal Management Controls of Funds Provided to Pakistan (Performance
    Evaluation). The review will determine whether specific internal controls have been properly
    designed and put in place for the Pakistan program funds, including procedures for planning,



                                                                                                         41
    organizing, directing, and controlling program operations. The review also will assess the system for
    measuring, reporting on, and monitoring program performance.

•   Review of Emergency Action Plan for Embassies Baghdad, Kabul, and Islamabad
    (Program Evaluation). The review will assess the status and effectiveness of emergency action
    plans for Embassies Baghdad, Kabul, and Islamabad to determine their reasonableness and their level
    of coordination with the military commanders in-country.

•   Review of Operations and Maintenance Contract for Embassy Islamabad (Contract
    Evaluation). This review will assess the requirements and provisions of the operations and
    maintenance contract for Embassy Islamabad. The objectives of this evaluation are to determine (1)
    the requirements and provisions of the contract and task orders; (2) the amount of funding DOS has
    obligated and expended for operations and maintenance on this contract; (3) the effectiveness of
    contractor performance in providing operations and maintenance services to the Embassy and other
    facilities; (4) the controls for inventorying, recording, and safeguarding U.S. Government-furnished
    equipment and property in Pakistan—whether the equipment has been properly accounted for, and
    the challenges to maintaining accountability; (5) how well DOS administers and manages the
    contract and task orders to provide oversight of the contractor’s performance in Pakistan; and (6)
    how DOS ensures that costs are properly allocated and supported.

DOS OIG established its field office at the U.S. Embassy in Islamabad in October 2010. The office
director has been assigned to Pakistan, and two evaluators arrived in March 2011. In addition to its
evaluations, DOS OIG has two investigative cases related to Pakistan. DOS OIG has six investigators
assigned to its Middle East Investigative Branch who pursue cases related to Pakistan, in addition to
handling regional cases.


Department of Defense Office of Inspector General

DOD OIG has no ongoing or planned projects related to the civilian assistance program in Pakistan for
FY 2011.

Government Accountability Office

GAO is an independent, nonpartisan agency that oversees federal government spending. GAO’s mission
is to help improve the performance and ensure the accountability of the federal government for the
benefit of the American people. GAO performs oversight at the request of Congress. Additionally,
GAO may be required to research issues mandated by public laws or may undertake work prompted by
broad-based congressional interest under the authority of the Comptroller General. GAO supports
congressional oversight through many avenues, such as auditing agency operations, investigating
allegations of illegal activities, reporting on the efficiency and effectiveness of government programs and
policies, analyzing policy, outlining options for congressional consideration, and issuing legal decisions
and opinions. GAO consults with key members of the accountability community, including the



                                                                                                        42
inspectors general. For example, GAO participates in the Afghanistan-Pakistan Subgroup, which is
chaired by USAID OIG and focuses on oversight of U.S. programs in those two countries.
 
Work Completed Since January 1, 2011

From January 1 through March 31, 2011, GAO completed two engagements on Pakistan:

•   Department of State’s Report to Congress and U.S. Oversight of Civilian Assistance to
    Pakistan Can Be Further Enhanced. (GAO-11-310R, February 17, 2011). Pakistan is a key
    U.S. ally in the effort to combat terrorism and violent extremism. Since 2002, the United States has
    provided over $18 billion to Pakistan. In October 2009, Congress passed the Enhanced Partnership
    with Pakistan Act of 2009, which authorizes up to $1.5 billion a year for civilian assistance to
    Pakistan for fiscal years 2010–14. The act encourages the use of Pakistani organizations to provide
    civilian assistance and also directed GAO to provide (1) a review of, and comments addressing,
    State’s Pakistan Assistance Strategy Report; (2) an assessment of the impact of the civilian assistance
    on the security and stability of Pakistan; (3) a detailed description of the expenditures made by
    Pakistan with Foreign Military Financing (FMF) grants; and (4) recommendations relating to any
    additional actions that could help improve U.S. efforts. GAO found that the Pakistan Assistance
    Strategy Report did not contain plans specifically related to operations research as defined in the act
    and it also did not include information on seven of the Millennium Challenge indicators, as the act
    requires. As of December 31, 2010, the full impact of the fiscal year 2010 civilian assistance could
    not be determined because most of the funding had not yet been disbursed. Since 2002, a total of
    $2.11 billion has been provided for FMF grants to Pakistan, of which Pakistan has used about $1.86
    billion. Some of these funds were used to refurbish or upgrade defense articles, including Cobra
    helicopters and armored personnel carriers. GAO made recommendations to improve the State
    Department’s reporting to Congress. In addition, to enhance accountability for U.S. assistance
    provided through Pakistani organizations, GAO recommended USAID require Pakistani
    organizations to address weaknesses identified in preaward assessments.

•   Accountability for U.S. Equipment Provided to Pakistani Security Forces in the
    Western Frontier Needs to Be Improved. (GAO-11-156R, February 15, 2011). Since
    2002, the United States has provided over $18 billion to Pakistan, including $1.5 billion to improve
    the counterterrorism and counterinsurgency capabilities of Pakistani security forces operating along
    Pakistan’s border with Afghanistan. The funding for these security forces provides military
    equipment, infrastructure, and training. GAO found that DOD’s written procedures for ensuring
    accountability for equipment at its Islamabad warehouse did not fully address key requirements on
    how to maintain accountability and management of property, and that the Defense Security
    Cooperation Agency (DSCA) did not follow up in a timely manner to ensure weaknesses that it
    identified in 2008 in procedures for safeguarding sensitive equipment in Pakistan’s custody had been
    fully addressed. GAO made recommendations to address these weaknesses. GAO also
    recommended DSCA conduct a compliance assessment to verify that U.S. and Pakistani officials have
    complied with the 2010 National Defense Authorization Act, which requires registering and end-use
    monitoring of defense articles, including small arms, transferred to Afghanistan and Pakistan.



                                                                                                        43
Work Under Way

From January 1 through March 31, 2011, GAO had three ongoing engagements concerning Pakistan:

•   U.S. Efforts to Enhance Pakistan’s Security Forces. This engagement is assessing (1) the
    status of U.S. efforts to train, equip, and improve infrastructure for Pakistani security forces to
    enhance counterinsurgency and counterterrorism capabilities along the western frontier bordering
    Afghanistan using the Pakistan Counterinsurgency Fund and the Pakistan Counterinsurgency
    Capabilities Fund and (2) the extent to which DOD and DOS are implementing and following
    policies and procedures for human rights vetting to ensure compliance with congressional human
    rights funding restrictions on the two counterinsurgency fund appropriations. GAO expects to
    complete this engagement in May 2011.

•   Pakistan’s Anti-Terror Efforts. The Enhanced Partnership with Pakistan Act of 2009 prohibits
    military assistance and arms transfers to Pakistan in FY 2011–14 unless the President certifies that
    Pakistan is making significant progress in combating terrorist groups—including ceasing support for
    such groups, preventing them from operating in Pakistan, and strengthening counterterrorism and
    anti-money-laundering laws—and that its security forces are not subverting the country's political or
    judicial processes. The act requires GAO to independently assess this certification. GAO will
    assess the extent to which (1) the amount of State’s funding is contingent on the certification, (2)
    State complied with the mandated requirements, (3) the ceritifcation is supported by evidence from
    the U.S. agencies and the views of experts, and (4) State obtained input from other agencies to
    develop the certification and justification memorandum. GAO expects to complete the assessment
    120 days after the President’s certification.

•   Pakistan Nuclear Networks. The Enhanced Partnership with Pakistan Act of 2009 prohibits
    military assistance and arms transfers to Pakistan in FY 2011–14 unless the President certifies that
    Pakistan is continuing to cooperate with the United States in efforts to dismantle nuclear supplier
    networks relating to the acquisition of nuclear-weapons-related materials—for example, by
    providing relevant information from or direct access to Pakistani nationals associated with such
    networks. The act requires GAO to independently assess this certification. This engagement will
    assess the extent to which (1) the A.Q. Khan network facilitated the proliferation of sensitive
    nuclear technology, (2) experts identified potential gaps in the U.S. Government’s knowledge of the
    A.Q. Khan network, (3) Pakistan has cooperated with the United States to ensure that the network
    is no longer active, and (4) State’s certification is consistent with experts’ views on Pakistan’s
    cooperation with U.S. efforts to dismantle nuclear networks. GAO expects to complete this
    assessment 120 days after the President’s certification.


Work Planned for the Remainder of FY 2011

In response to congressional interest, GAO may begin additional work on Pakistan and relate its findings
in subsequent reports.




                                                                                                      44
Completed Oversight Reports as of March 31, 2011

Table 9 lists oversight reports completed since the passage of the Enhanced Partnership with Pakistan
Act, October 15, 2009.

                 Table 9. Oversight Reports Completed as of March 31, 2011

Agency     Report Number        Report Date                             Report Title
                                                 Department of State’s Report to Congress and U.S.
GAO        GAO-11-310R             2/17/11       Oversight of Civilian Assistance to Pakistan Can Be Further
                                                 Enhanced
                                                 Accountability for U.S. Equipment Provided to Pakistan
GAO        GAO-11-156R             2/15/11       Security Forces in the Western Frontier Needs to be
                                                 Improved

                                                 Audit of USAID/Pakistan’s Flood Relief Efforts as
USAID      5-391-11-003-P          1/24/11 
                                                 Administered by Local Nongovernmental Organizations

                                                 The Bureau of Population, Refugees and Migration’s
DOS        MERO-I-11-01              1/11 
                                                 Internally Displaced Persons Program in Pakistan

                                                 Financial Audit of Khushhali Bank Limited Under the
                                                 Developing Non-Bankable Territories for Financial Services
USAID      G-391-11-001-R          12/30/10
                                                 Program (Close-Out Audit), for the Period January 1, 2009,
                                                 to September 30, 2009
                                                 Audit of USAID/Pakistan’s Livelihood Development Program
USAID      5-391-11-002-P          12/10/10      for the Upper Region of the Federally Administered Tribal
                                                 Areas
                                                 Audit of USAID/Pakistan’s Livelihood Development Program
USAID      5-391-11-001-P          12/10/10      for the Lower Region of the Federally Administered Tribal
                                                 Areas
                                                 Financial Audit of the Costs Incurred by Research Triangle
                                                 Institute Under the Education Sector Reform Assistance
USAID     G-391-11-001-D           11/8/10
                                                 Program’s School Enhancement Program Component, for
                                                 the Period December 4, 2002, to September 30, 2007
                                                 Audit of USAID/Pakistan’s Family Advancement for Life and
USAID      5-391-10-012-P          8/31/10
                                                 Health Program

                                                 Financial Audit of the Pakistan Competitiveness Support
                                                 Fund, USAID/Pakistan Grant Agreement No. 391-G-00-06-
USAID     G-391-10-001-R            8/4/10
                                                 01073-00, Managed by the Competitiveness Support Fund,
                                                 for the Period February 3, 2006, to June 30, 2009
                                                 Audit of USAID/Pakistan’s Primary Healthcare Revitalization,
USAID      5-391-10-010-P          6/28/10       Integration and Decentralization in Earthquake-Affected
                                                 Areas Project

                                                 Review of USAID’s Internally Displaced Persons Programs in
USAID      5-391-10-001-S          6/28/10
                                                 Pakistan




                                                                                                          45
Agency   Report Number    Report Date                           Report Title

DOS      ISP-I-10-64         6/10        Inspection of Embassy Islamabad, Pakistan

                                         Financial Audit of USAID Funds Managed by Forman
USAID    5-391-10-033-R     5/18/10      Christian College, Lahore, for the Period July 1, 2007, to
                                         June 30, 2009

                                         Financial Audit of USAID Funds Managed by Khushhali Bank
USAID    5-391-10-029-R     4/30/10
                                         for the Year Ended December 31, 2008

                                         Combating Terrorism: Planning and Documentation of U.S.
GAO      GAO-10-289         4/15/10      Development Assistance in Pakistan's Federally
                                         Administered Tribal Areas Need to Be Improved
                                         Closeout Financial Audit of USAID Funds Managed by
USAID    5-391-10-026-R     3/24/10      Greenstar Social Marketing Pakistan (Guarantee) Limited,
                                         for the Period July 1 to December 31, 2007
                                         The Bureau of International Narcotics and Law Enforcement
DOS      MERO-A-10-03        3/10        Affairs Air Wing Program in Afghanistan and Pakistan,
                                         Performance Audit
                                         Closeout Financial Audit of USAID Funds Managed by Aga
USAID    5-391-10-020-R     2/11/10      Khan University—Examination Board, for the Year Ended
                                         December 31, 2007
                                         Audit of USAID/Pakistan’s Capacity Building for the
USAID    5-391-10-005-P     1/28/10
                                         Federally Administered Tribal Areas Development Program
                                         Financial Audit of USAID Funds Managed by Children’s
USAID    5-391-10-012-R     12/22/09     Global Network Pakistan Limited, for the Year Ended
                                         June 30, 2008
                                         Status of the Bureau of International Narcotics and Law
DOS      MERO-A-10-02        12/09       Enforcement Affairs Counternarcotics Programs in
                                         Afghanistan, Performance Audit
                                         Effectiveness of Counter Narcotics Programs in Pakistan,
DOS      MERO-A-10-01        11/09
                                         Performance Audit




                                                                                                      46
                                                                                      Appendix




Appendix—–Abbreviations
AED        Academy for Educational Development

DEA        Drug Enforcement Administration

DOC        Department of Commerce

DOD        Department of Defense

DOS        Department of State

DSCA       Defense Security Cooperation Agency

Ed-LINKS   Links to Learning—Education Support to Pakistan

FAO        U.N. Food and Agriculture Organization

FATA       Federally Administered Tribal Areas

FBI        Federal Bureau of Investigation

FMF        Foreign Military Financing

FY         fiscal year

GAO        Government Accountability Office

GENCO      Power Generation Company

ICRC       International Committee of the Red Cross

IDPs       internally displaced persons

IOM        International Organization for Migration

KNCV       Royal Netherlands Tuberculosis Association (Koninklijk Nederlandsche Centrale
           Vereeniging)

NAB        National Accountability Bureau

NAS        Narcotics Affairs Section (U.S. Embassy Islamabad)

NGO        nongovernmental organization

OFDA       Office of Foreign Disaster Assistance



                                                                                           47
                                                                Appendix


OIG        Office of Inspector General

PAS        Public Affairs Section (U.S. Embassy Islamabad)

POL        Political Affairs Section (U.S. Embassy Islamabad)

Pre-STEP   Pre-Service Teacher Education Program

RSO        Regional Security Office (U.S. Embassy Islamabad)

U.N.       United Nations

UNFPA      United Nations Population Fund

UNHCR      U.N. High Commission for Refugees

UNICEF     United Nations Children’s Fund

USAID      U.S. Agency for International Development

USDA       U.S. Department of Agriculture

USIP       U.S. Institute of Peace

USTDA      U.S. Trade and Development Agency

WAPDA      Water and Power Development Authority

WHO        World Health Organization




                                                                     48
